 DEPARTMENT OF HOMELAND SECURITY

  Office of Inspector General



         Review of the Status of
 

     Department of Homeland Security
 

           Efforts to Address Its
 

     Major Management Challenges
 





        Office of Audits
 

OIG-04-21            March 2004
 

                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for implementation.
It is my hope that this report will result in more effective, efficient, and/or economical operations.
I express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                             Contents
 


Introduction......................................................................................................................................2
 


Results in Brief ................................................................................................................................3
 


Consolidating the Department’s Components .................................................................................4
 


Contract Management ......................................................................................................................7
 


Grants Management .........................................................................................................................9
 


Financial Management...................................................................................................................10
 


Information Technology Management...........................................................................................18
 


Human Capital Management .........................................................................................................22
 


Intelligence Matters .......................................................................................................................22
 


Border Security ..............................................................................................................................26
 


Transportation Security..................................................................................................................44
 



Appendices

Appendix 1: Status of Key Legacy OIG Recommendations .........................................................61
 


Appendix 2: Abbreviations and Acronyms ....................................................................................70
 


Appendix 3: Purpose, Scope and Methodology.............................................................................74
 


Appendix 4: Report Distribution ...................................................................................................75
 





                                 Status on the Department Management Challenges                                                                      Page 1

OIG
 

Department of Homeland Security
Office of Inspector General


Introduction
               On March 1, 2004, it was one year since almost 180,000 employees and
               22 disparate agencies combined to form the Department of Homeland Security
               (DHS) in one of the largest government reorganizations ever. The reorganization
               had elements of a merger, divestiture, acquisition, and startup. Because of
               the size and complexity of the effort, the existing challenges already faced by
               the incoming components, and the importance of the department’s mission,
               the General Accounting Office (GAO) designated the implementation and
               transformation of DHS as a “high risk.” GAO also noted that successful
               transformations of large organizations under even less complicated situations
               could take from 5 to 7 years.

               The Office of Inspector General (OIG), as one of its first tasks, consulted with
               the legacy OIGs whose staffs OIG inherited and identified major management
               challenges facing the department. These challenges were then used in setting
               OIG priorities for audits, inspections, and evaluations of DHS programs and
               operations, and developing OIG’s performance plans. As part of OIG’s fiscal year
               (FY) 2004 performance plan, which may be found on OIG’s web site, we included
               an assessment of the department’s progress in addressing these challenges. This
               report presents that assessment, and includes the status of key recommendations
               still open at the beginning of the period; observations from OIG audits and
               inspections completed or nearing completion; and discussions with DHS officials
               on major DHS program initiatives and accomplishments during the year.

               Much of the information presented in this report is based on information provided
               by DHS officials, and which OIG has not had a chance to verify. Consequently,
               the report does not constitute an audit according to generally accepted government
               auditing standards, nor does the report contain specific recommendations, other
               than those made in OIG reports cited herein. Nevertheless, OIG believes this
               document provides a valuable compendium of issues related to, and DHS’
               progress in addressing, the major management challenges facing DHS.




Page 2                       Status on the Department Management Challenges
 

Results in Brief

                DHS has made significant progress in addressing all of its management
                challenges. However, some of the planned improvements will take years to
                develop and implement, and much remains to be done. For example:

                    §   DHS has taken steps to consolidate many of its support service operations,
                        including financial management, contracting, and human resources, but the
                        operations are still not under central control, and contracts management
                        and information technology present formidable challenges.

                    §   DHS has taken steps to consolidate its preparedness grant programs
                        under one component, and generally has been timely in awarding “first
                        responder” funds; however, state and local grant recipients have been
                        slow in spending the funds, and an effective grants management system is
                        needed.

                    §   Financial management functions provided by 19 separate service providers
                        during FY 2003 are now provided by 10 service providers, including 4
                        outside DHS; however, development and implementation of a single,
                        integrated financial management system are still years away.

                    §   DHS has developed and distributed for public comment proposed human
                        resource regulations that will dramatically affect DHS employees and
                        could serve as a model for the whole federal government; however,
                        finalizing and implementing these regulations will be challenging.

                    §   DHS has made major strides in protecting U.S. borders, including
                        beginning implementation of the United States Visitor and Immigrant
                        Status Indication Technology System (US-VISIT) program, which will
                        provide the capability to record entry and exit information on foreign
                        visitors who travel through U.S. air, sea, and land ports of entry. However,
                        the challenges are immense, and it will take years to address them fully.

                Two of the greatest homeland security challenges facing DHS over the past
                year have been the ongoing effort to implement the Aviation and Transportation
                Security Act of 2001 (ATSA) and the Maritime Transportation Security Act of
                2002 (MTSA). To this end, the Transportation Security Administration (TSA)
                and the United States Coast Guard (Coast Guard) have made great progress in
                implementing critical components of the legislation and, as a result, our nation’s
                defense against international terrorism has never been stronger. Despite the



                Status on the Department Management Challenges                               Page 3

              progress that has been made over the past year, tight legislative deadlines,
              funding difficulties, a shortage of trained and qualified personnel to oversee
              and implement the legislation, delays in the acquisition and implementation
              of technological solutions, and a shortage of critical infrastructure to support
              homeland security initiatives, continue to challenge the department.

              Information technology (IT) also remains a major management challenge for
              DHS. IT systems and tools are fundamental to supporting programs and activities
              across the department—from counter-terrorism, to border protection, to internal
              department operations. Effectively managing the IT assets is not only critical to
              achieving performance goals and the greatest possible returns on investments,
              it is also required by law. With central responsibility for ensuring effective IT
              management pursuant to the Clinger-Cohen Act and related statutes, the Chief
              Information Officer (CIO) is working to establish department-wide IT strategies
              and a consolidated framework for meeting mission needs. Key areas of focus
              include IT security, integrating systems, and ensuring effective information
              sharing.

              In February 2004, DHS issued its first strategic plan, with goals and objectives
              directly linked to accomplishing the three objectives of the President’s National
              Strategy for Homeland Security. These goals and objectives, together with
              specific measures of effectiveness, which are still being developed, will provide
              an important impetus for further progress in meeting DHS’ management
              challenges.

              The OIG will continue to track the department’s progress in these areas. Our
              FY 2004 performance plan, which addresses many aspects of DHS’ management
              challenges, can be found on our website at www.dhs.gov.


Consolidating the Department’s Components
              Perhaps the biggest challenge facing DHS is integrating 22 separate components
              into a single, effective, efficient, and economical department. DHS has made
              notable progress in this area, but there is much to be done, and OIG has concerns
              that structural and resource problems are inhibiting progress in certain support
              functions.

              Support Functions
              On March 1, 2003, DHS faced the daunting task of supporting 22 different
              components receiving services from nine different parent agencies. To provide


Page 4                       Status on the Department Management Challenges

continuity of service, DHS signed Memoranda of Understanding (MOU) with
each of the parent agencies to continue that support. Then, on May 1, the Under
Secretary for Management established a transition team to consolidate support
services throughout the department. The team identified 255 unique services in
the 22 components and DHS headquarters resulting in 3,457 separate services
requirements. The services were catalogued under eight lines of business:
administrative services, human resources, information technology, procurement,
financial management, civil rights, legal, and security.

According to DHS officials, by October 2003, the department was supporting
1463 of the 3457 services, and they expect that most of the services will be
provided by DHS by the end of FY 2004. In addition, DHS has made significant
progress in consolidating services under fewer service providers within the
department:

   §   19 financial management service providers were reduced to 10;

   §   13 separate contracting offices were reduced to 8;

   §   22 human resource offices were reduced to 7;

   §   8 different payroll systems were reduced to 3, and the DHS expects to pay
       all of its employees using one system by the end of the year; and

   §   22 property management systems have been consolidated to 3.

Of particular note was the establishment in July 2003 of an integrated project
team to realign and transform support services for the 68,000 mission delivery
employees assigned to the Bureau of Immigration and Customs Enforcement
(ICE), the Bureau of Customs and Border Protection (CBP), and the Bureau of
Citizenship and Immigration Services (CIS). This was especially difficult because
ICE was highly decentralized, and CBP was highly centralized. The team was
to develop a basis for shared services, consolidate services where appropriate to
realize economies of scale, and ensure accountability. The result was that CIS,
ICE, and CBP each became primary service providers for selected services. For
example, CBP provides facilities acquisition and management, ICE provides
supervisory leadership training, and CIS provides records management. For some
services, however, the three components remain self-supporting. Those services
include procurement, personal property, budget, and labor and employee relations.
Among the next steps in implementing the tri-bureau shared services arrangement
are implementation of a governance charter, establishment of performance



Status on the Department Management Challenges                            Page 5

                           metrics and performance reporting systems, and establishment of “continuous
                           improvement” teams.

                           Further, DHS has undertaken a new resource transformation initiative called
                           “eMerge2”1. This effort is to result in a consolidated enterprise solution for
                           DHS administrative functions, including accounting, acquisition, budgeting, and
                           procurement. IT management challenges are discussed later in this report.

                           OIG is concerned, however, that structural and resource problems are inhibiting
                           progress in the areas of financial management, contracts management, and
                           information technology, as discussed in the related sections below.

                           Program Integration
                           The Federal Emergency Management Agency (FEMA) was the only existing
                           federal agency that was integrated in its entirety into DHS. While the newly
                           created directorate is titled “Emergency Preparedness and Response” (EP&R),
                           it consists primarily of FEMA. In many respects, moving the entire agency into
                           the department made integration easier; however, there have been problems.
                           FEMA’s primary missions have been preparedness for, mitigation of, response to,
                           and recovery from natural and man-made disasters. Almost all of FEMA’s efforts
                           have been focused on natural disasters. Transition to DHS meant that EP&R had
                           to maintain its ability to respond to natural disasters and, in addition, increase its
                           ability to respond to terrorist attacks.

                           EP&R has been successful in maintaining its mission to respond to natural
                           disasters. On September 24, 2003, the Deputy Inspector General testified before
                           the Subcommittee on Clean Air, Climate Change, and Nuclear Safety, Committee
                           on Environmental and Public Works that FEMA has not missed a step in
                           responding to disasters since becoming part of the department.

                           In shifting toward terrorism preparedness, EP&R has increased its emphasis on
                           activities unique to dealing with terrorist attacks. For example, it has trained and
                           equipped the 28 urban search and rescue task forces to respond to weapons of
                           mass destruction attacks. OIG has not yet reviewed EP&R’s efforts in these areas,
                           but we will begin a review of the urban search and rescue response system this
                           year.



1
    “eMerge2” is the Electronically Managing Enterprise Resources for Government Effectiveness & Efficiency program.



Page 6                                      Status on the Department Management Challenges
             EP&R also acquired other agencies’ preparedness and response assets when DHS
             was created. These assets include the strategic national stockpile, the national
             disaster medical system, nuclear incident response teams, domestic emergency
             support teams, and the National Domestic Preparedness Office. According to a
             senior EP&R official, the largest integration challenge has been integrating the
             Department of Health and Human Services (HHS)’s strategic national stockpile
             into EP&R. As shown by the financial statement audit, responsibility for the
             stockpile is bifurcated and unclear. DHS proposes to return the stockpile to HHS.
             OIG will continue to monitor integration of these assets into EP&R.

             One agency profoundly affected by the creation of DHS was the Immigration
             and Naturalization Service (INS), previously housed within the Department of
             Justice (DOJ). As a result of the Homeland Security Act of 2002 (HSA), INS
             was abolished and legacy components of INS now reside in ICE, CIS, and CBP.
             OIG is conducting evaluations of ICE and CIS, and we have extensive audit
             work under way in CBP. We will evaluate the effectiveness of their respective
             programs, and those of the other component organizations within DHS, as part of
             our performance plan.


Contract Management
             A major challenge for the department is the identification and management of its
             procurements. DHS has made progress in reducing the number of contracting
             offices, and has taken numerous steps to promote efficient and effective
             procurements.

             For example, DHS has established a Strategic Sourcing Group (SSG) to
             implement a department-wide approach to acquiring goods and services. The
             SSG established commodity councils that are identifying the department’s needs
             for each commodity and developing more efficient purchasing mechanisms
             to address those needs. So far, DHS has established 14 commodity councils,
             covering among other things, office supplies, weapons and ammunition, uniforms,
             electricity, and airport services.

             DHS also established the Investment Review Board (IRB), chaired by the Deputy
             Secretary, as the executive review board that provides acquisition oversight
             over the department’s investments and conducts portfolio management. The
             IRB conducts systematic reviews of investment preparations and approves key
             decisions. It also serves as a forum for discussing investment issues and resolving
             problems requiring senior management attention.



             Status on the Department Management Challenges                              Page 7

         DHS has won awards for its Federal Technical Data Solution program. This
         program is a part of the Integrated Acquisition Environment E-Gov Program
         and represents a partnership among the General Services Administration, the
         Department of Defense, the Office of Management and Budget (OMB), and DHS.
         This program will be used to disseminate all Sensitive But Unclassified (SBU)
         information associated with an active acquisition or solicitation to approved
         business partners, promoting full competition in a secured environment.

         Nevertheless, formidable challenges remain. DHS needs to begin integrating
         the procurement functions of its component organizations to ensure that
         good management controls are consistently applied. Several of the incoming
         procurement organizations have lacked important management controls. For
         example, during its first year of operation, TSA relied extensively on contractors
         to accomplish its mission, but some contracts were written without clearly defined
         deliverables, and TSA lacked the staff to provide adequate oversight. As a result,
         the cost of those initial contracts ballooned. TSA is in the process of devising
         policies and procedures that require adequate procurement planning, contract
         structure, and contract oversight. Also, FEMA has just recently discovered that it
         has not been reporting or tracking procurements let by its disaster field offices.

         Other components of the department have some large, complex, high-cost
         procurement programs under way that need to be closely managed. For example,
         Customs’ Automated Commercial Environment (ACE) project will cost $5
         billion, and the Coast Guard’s Deepwater Capability Replacement Project will
         cost $17 billion and take two to three decades to complete. Further, to support
         the aforementioned US-VISIT program, DHS will soon award a contract for the
         development of an automated system for tracking and controlling the entry and
         exit of all aliens entering and leaving the country through air, land, and sea ports.
         It is anticipated that this will be a multi-billion dollar program implemented
         over the next 10 years. OIG will be reviewing these major procurements on an
         ongoing basis.

         DHS has also struggled to prepare a sufficiently detailed and accurate listing
         of its procurements. The data DHS has received to date has come from 22
         different sources, does not provide total contract award information, and has not
         been independently validated. While efforts are under way to bring all of DHS’
         procurements under the umbrella of one comprehensive reporting system, data
         for FY 2003 and FY 2004 have not been reported in detail sufficient to manage
         the procurement universe and have not been independently validated to assure
         accuracy and consistency.



Page 8                  Status on the Department Management Challenges

Grants Management
                           DHS inherited a variety of grant programs that provide money for disaster
                           preparedness, response, recovery, and prevention. Significant shortcomings had
                           been identified in many of these programs in the past, and the potential for overlap
                           and duplicate funding has grown as the number of grant programs has grown.
                           For example, OIG reported that many items authorized for purchase under the
                           program are also authorized for purchase under the State Homeland Security
                           Grant Program.2 In addition, preparedness grant programs were located in
                           different department directorates, creating challenges related to inter-departmental
                           coordination, performance accountability, and fiscal accountability. Furthermore,
                           DHS program managers needed to develop meaningful performance measures
                           to determine whether the grant programs have actually enhanced state and local
                           capabilities to respond to terrorist attacks and natural disasters.

                           DHS has made significant strides in this area, particularly in consolidating the
                           preparedness grant programs. However, problems remain, and means must be
                           found to ensure that first responder funds are being used effectively and getting to
                           those who need them in a timely manner.

                           Consolidation of Preparedness Grants
                           DHS has taken steps to consolidate the two principal offices responsible for
                           administering the grant awarding process for emergency responders and state and
                           local coordination: the Office of Domestic Preparedness, and the Office of State
                           and Local Government Coordination. This consolidation addresses the need to tie
                           all DHS terrorism preparedness programs together into a cohesive overall national
                           preparedness program. We applaud this effort.

                           DHS is also in the process of creating the Grants Management Council. It is
                           intended to be a group of senior DHS managers to provide advice on issues
                           regarding DHS grant programs. It will include identifying innovative approaches
                           to promote effective business practices that ensure the timely delivery and proper
                           stewardship of federal assistance funds. The first meeting was held on February
                           10, 2004. We support this effort and will participate in an advisory role.

                           Preparedness and First Responder Grants
                           Based on the FY 2001 through FY 2005 budget requests, over $14 billion in
                           assistance will be made available for grant programs during the 5-year period.

2
    Assistance to Firefighters Grant Program (Audit report number OIG-ISP-01-03, September 2003)


                           Status on the Department Management Challenges                                Page 9
                          DHS estimates that there are more than 80 grant programs3 now under its
                          managerial control, and many of them fund preparedness and first responders.
                          We recently completed fieldwork related to a review of Office for Domestic
                          Preparedness (ODP) first responder grant distribution and spending. We found
                          that states, local jurisdictions, and first responder organizations have been slow to
                          spend ODP first responder grant funds, although, in many cases, the funds have
                          been obligated. In many cases the states have specific plans in place and know
                          who will get the money and what they will buy. In addition, state and jurisdiction
                          officials agreed that spending the funds wisely was more important than spending
                          them quickly. Nevertheless, there is room for improvement.

                          We found that, as of February 10, 2004, the majority of the $2.4 billion in
                          FY 2002 and 2003 first responder grant funds awarded have not been drawn
                          down. The 56 states and territories that had been awarded the funds had drawn
                          down only 36% of FY 2002 awards and about 13% of FY 2003 awards.

                          In addition to delays caused by planning requirements, we identified numerous
                          other reasons for delayed spending. For example, local governments’ processes
                          for grant approval and procurement often cause delays. Some delays, such as
                          equipment delivery backlogs, are unavoidable.

                          For the most part, delays were not due to ODP’s processing and approving
                          grant applications, and states generally were pleased with ODP’s performance.
                          However, DHS needs to require more meaningful reporting by grantees, and
                          develop performance standards, so that it can track their progress more accurately;
                          work with grantees to collect and identify best practices and strategies that speed
                          spending; and assist state planning efforts by accelerating the development
                          of federal guidelines for first responder capabilities, equipment, training, and
                          exercises.

                          OIG is planning a continuing series of audits of preparedness and first responders
                          grant programs to assess states’ management of the grants.

                          Further, DHS is tasked with producing a detailed national assessment of
                          the terrorist threat as a basis for federal spending and regularly updating the
                          assessment in the future. By January 31, 2004, ODP collected homeland security
                          strategies from each of the states. However, it remains to be determined how the
                          data in these state strategies can be used to obtain a national picture of the terrorist


3
 The number of programs is surprisingly large due in part to separate appropriations in the same and different years and name
changes that all get counted as separate grants, even though they are for the same or similar purposes.


Page 10                                     Status on the Department Management Challenges
             threat, as well as, how reliable the data behind the strategies is. OIG will conduct
             an audit of the homeland security strategies data collection this year.

             Grants Management System
             DHS is faced with developing an effective, integrated grants management and
             accounting system, but is still a long way from accomplishing that objective.
             While grants managed by the Science and Technology (S&T) Directorate, ICE,
             the Information Analysis and Infrastructure Protection (IAIP) Directorate, and
             ODP fire grants, are processed under MOUs with FEMA, other components’
             grants are managed by outside agencies:

                §   DOJ processes the ODP grants, except for fire grants.

                §   The Federal Aviation Administration (FAA) processes the TSA aviation
                    grants.

                §   The Department of Energy (DOE) processes S&T grants and contracts
                    with Oak Ridge National Labs.

             DHS’ Grants Policy and Oversight Office has been inventorying DHS grants, no
             small task, as well as collecting the regulations and relevant laws for each, and
             identifying awarding offices, servicing offices, grants management systems, and
             administrative staff. This office was also spearheading the e-grants initiative until
             DHS’ Resource Management Transformation Office took over that responsibility
             in September 2003.

             Progress in this area may have been hampered by inadequate resources. About 63
             FY 2002 grants and more than 83 FY 2003 grants were integrated into DHS, yet
             the Grants Policy and Oversight Office was staffed by only one full-time person
             for much of the past year. The problem is receiving additional attention and
             funding in FY 2004. OIG will continue to monitor DHS’ progress in this regard.


Financial Management
             The most immediate financial management challenge for DHS has been the
             orderly transition of the financial operations of its inherited components and the
             development of plans for its own integrated financial management system. As
             noted above, DHS has made significant progress in these areas. Further, DHS
             was presented with the challenge of preparing its first set of financial statements
             for audit, and met that challenge under difficult circumstances. Finally, DHS has



             Status on the Department Management Challenges                                Page 11

          the challenge of collecting more than $22 billion in duties, excise taxes, fines,
          penalties, and other revenues.

          Integration and Reporting of Financial Information
          OIG’s audit contractor, KPMG LLP (KPMG), recently completed an audit of
          DHS’ financial statements as of September 30, 2003, and for the 7 months then
          ended, as required by the Accountability of Tax Dollars Act of 2002. Despite
          limited staff with many other responsibilities, DHS officials agreed to accept
          the challenge of a financial statement audit, even though it added strain on its
          relatively limited resources. They recognized that an audit would establish a solid
          baseline from which DHS could plan for and build good financial management
          processes. With this audit, DHS now has that solid baseline for measuring
          improvement.

          KPMG gave a qualified opinion on the consolidated balance sheet and statement
          of custodial activity, meaning that, except for certain items described below, they
          were presented fairly and free of material misstatements. KPMG was unable to
          provide an opinion on the remaining statements for the reasons discussed below.
          The qualification on the balance sheet related to:

             §   The lack of sufficient documentation provided prior to the completion of
                 KPMG’s audit procedures to support $2.9 billion in property, plant, and
                 equipment at the Coast Guard;

             §   KPMG’s inability to observe sufficient physical counts of operating
                 materials and supplies at Coast Guard or otherwise verify the valuation of
                 operating materials reported in the amount of $497 million; and

             §   The lack of sufficient, actuarial documentation provided prior to the
                 completion of KPMG’s audit procedures to support retirement benefits
                 recorded at $3.3 billion at the Secret Service and post-employment
                 benefits recorded at $201 million at the Coast Guard.

          The Coast Guard’s financial statements had never been audited at the level of
          detail required at DHS, where the Coast Guard became a larger bureau relative
          to its executive department. It is not uncommon for a large established agency
          such as the Coast Guard to require additional time to get its processes and systems
          in place to facilitate a financial statement audit at this level of detail. The Secret
          Service has obtained actuarial report on its retirement benefits liability, and




Page 12                  Status on the Department Management Challenges

believes it has recorded the correct amount. Coast Guard has likewise done the
same for its post-employment benefits liability.

KPMG was unable to provide an opinion on the consolidated statements of net
cost and changes in net position, the combined statement of budgetary resources,
and the consolidated statement of financing for several reasons. First, several
“legacy” agencies (agencies from which component entities or functions were
transferred to DHS) submitted accounting and financial information over which
DHS had limited control. Consequently, the auditors were unable to complete
procedures relating to revenue, costs, and related budgetary transactions reported
by the legacy agencies to DHS. In addition, KPMG was unable to complete audit
procedures over certain revenues, costs, and related budgetary transactions at the
Coast Guard, prior to the completion of the DHS consolidated audit.

DHS inherited 18 material weaknesses from the Customs Service, the INS,
FEMA, and TSA. KPMG determined that nine of the material weaknesses were
corrected or partially corrected. The remaining ones were consolidated into
seven DHS material weaknesses or reclassified to a reportable condition or other
matter for management’s attention. The seven material weaknesses included the
following

   §   Financial Management and Personnel: DHS’ Office of the Chief
       Financial Officer (OCFO) needs to establish financial reporting roles and
       responsibilities, assess critical needs, and establish standard operating
       procedures (SOPs). These conditions were not unexpected for a newly
       created organization, especially one as large and complex as DHS. The
       Coast Guard and the Strategic National Stockpile had weaknesses in
       financial oversight that have led to reporting problems, as discussed
       further below.

   §   Financial Reporting: Key controls to ensure reporting integrity were
       not in place, and inefficiencies made the process more error prone. At
       the Coast Guard, the financial reporting process was complex and labor-
       intensive. Several DHS bureaus lacked clearly documented procedures,
       making them vulnerable to the loss of key people.

   §   Financial Systems Functionality and Technology: The auditors found
       weaknesses across DHS in its entity-wide security program management
       and in controls over system access, application software development,
       system software, segregation of duties, and service continuity. Many




Status on the Department Management Challenges                             Page 13
 

                 bureau systems lacked certain functionality to support the financial
                 reporting requirements.

             §   Property, Plant, and Equipment (PP&E): The Coast Guard was unable
                 to support $2.9 billion in PP&E due to insufficient documentation
                 provided prior to the completion of KPMG’s audit procedures, including
                 documentation to support its estimation methodology. TSA lacked a
                 comprehensive property management system and adequate policies and
                 procedures to ensure the accuracy of its PP&E records.

             §   Operating Materials and Supplies (OM&S): Internal controls over
                 physical counts of OM&S were not effective at the Coast Guard. The
                 Coast Guard also had not recently reviewed its OM&S capitalization
                 policy, leading to a material adjustment to its records when an analysis
                 was performed.

             §   Actuarial Liabilities: The Secret Service did not record the pension
                 liability for certain of its employees and retirees, and when corrected, the
                 auditors had insufficient time to audit the amount recorded. The Coast
                 Guard also was unable to provide, prior to the completion of KMPG’s
                 audit procedures, sufficient documentation to support $201 million in post-
                 service benefits.

             §   Transfers of Funds, Assets, and Liabilities to the Department: DHS lacked
                 controls to verify that monthly financial reports and transferred balances
                 from legacy agencies were accurate and complete.

          Other reportable conditions included the following:

             §   Drawback Claims on Duties, Taxes, and Fees: The CBP’s accounting
                 system lacked automated controls to detect and prevent excessive
                 drawback claims and payments.

             §   Import Entry In-bond: CBP lacked an effective compliance measurement
                 program to compute an estimate of underpayment of related duties, taxes,
                 and fees.

             §   Acceptance and Adjudication of Immigration and Naturalization
                 Applications: The CIS’ process for tracking and reporting the status of
                 applications and related information was inconsistent and inefficient. CIS
                 did not perform cycle counts of its work in process that would facilitate



Page 14                 Status on the Department Management Challenges

       the accurate calculation of deferred revenue and reporting of related
       operational information.

   §   Fund Balance with Treasury (FBWT): The Coast Guard did not perform
       required reconciliations for FBWT accounts and lacked written SOPs to
       guide the process, primarily as the result of a new financial system that
       substantially increased the number of reconciling differences.

   §   Intra-governmental Balances: Several DHS bureaus had not developed
       and adopted effective SOPs or established systems to track, confirm, and
       reconcile intra-governmental balances and transactions with their trading
       partners.

   §   Strategic National Stockpile (SNS): The SNS accounting process was
       fragmented and disconnected, largely due to operational challenges caused
       by the laws governing the SNS. A $485 million upwards adjustment had
       to be made to value the SNS in DHS’ records properly.

   §   Accounts Payable and Undelivered Orders: CIS, ICE, TSA, and the Coast
       Guard had weaknesses in their processes for accruing accounts payable
       and /or reporting accurate balances for undelivered orders.

Further, KPMG identified weaknesses in the DHS’ reporting process for the
Federal Managers’ Financial Integrity Act of 1982 and instances of non-
compliance with the Federal Information Security Management Act. KPMG
also noted instances where DHS was not in full compliance with Office of
Management and Budget Circular A-133, subpart D – Federal Agencies and Pass-
Through Entities and Appendix B, Compliance Supplement.

Revenue Collection
CBP is not only responsible for border security and narcotics interdiction, it
is also responsible for enforcing trade regulations and collecting associated
revenues. Annually, the United States collects more than $24 billion in customs
duties, excise taxes, fines, penalties and other revenue. While it is paramount that
DHS ensure that the nation’s ports are secure from terrorist activities, it is also
important that the revenue base is protected.

CBP’s compliance measurement program targets importers to assess trade
compliance and project the revenue base, along with the associated revenue gap.
The revenue gap is the difference between the dollar amount of import duties,



Status on the Department Management Challenges                               Page 15

          taxes, and fees that CBP could have collected under current operations had all
          goods been entered in full compliance, and the actual amount of revenue collected
          by CBP. Using this information, CBP estimated the revenue gap to be $170
          million for FY 2003. However, the reliability of the compliance measurement
          data is questionable. We identified discrepancies in the data used to establish
          the compliance rate, for example import data varied depending on the database
          accessed. Accordingly, the compliance rate may be imprecise.

          The Treasury OIG had conducted a review of CBP’s international mail operations.
          Each year a huge volume of international mail transported by foreign postal
          administrators - approximately 160 million letters and parcels - enters the United
          States at 13 international mail branches (IMB). These IMBs are dispersed
          throughout the country, but are often co-located with international airports,
          seaports, and land ports. In addition to examining the mail for implements of
          terror and other contraband, CBP examines the mail to identify dutiable parcels.
          Treasury OIG reported that information on values from the mail declarations is
          often inaccurate and reliance on such information has resulted in CBP’s losing
          revenue. CBP has taken measures to improve the collectability of mail revenue.
          These measures include:

             §   Using the mail survey results to target where the greatest potential for
                 revenue in mail packages is located based on type of mail, country of
                 origin, etc.;

             §   Revising its International Mail Operations and Enforcement Handbook to
                 standardize operations at all IMBs; and,

             §   Monitoring incoming mail to ensure that international mail is delivered to
                 CBP for inspection.

          However, since receipt of the mail at the IMB is the primary mission of the United
          States Postal Service (USPS), CBP must work cooperatively with the Postal
          Service to ensure that adequate processes are in place at the IMBs to ensure that
          all mail is delivered to CBP for inspection, and outstanding duties are collected
          from the USPS.

          Both ICE and CIS perform an integral role in collecting and accounting for the
          more than $1 billion in application fees from non-citizens seeking entry into the
          U.S. In fulfilling its mission, CIS processes millions of actions and requests that
          are documented in paper files. The systems that track these applications are non-
          integrated, and many are ad hoc. As a result, CIS must perform regular data calls



Page 16                  Status on the Department Management Challenges

to obtain information on its pending application inventory, which is important in
measuring performance. This situation and the lack of regular cyclical inventories
of this work-in-process has caused CIS to halt normal business operations for
up to two weeks in past years in order to report deferred revenue accurately.
“Deferred revenue” is a financial measure of pending applications and is material
to the Department’s financial statements. Also, DHS’ financial statement audit
found that CIS lacks standard operating procedures to track and report the status
of applications and related information. The challenge for CIS is to move from
paper based and non-integrated processes to an integrated case management
system, which CIS is planning to implement.

CBP processes drawback claims on duties, taxes, and fees. “Drawback” is a
remittance of duties, taxes, or fees previously paid by an importer. Drawback
typically occurs when the imported goods on which duties, taxes, or fees have
been previously paid, are subsequently exported from the U.S., or destroyed prior
to entering the U.S. commerce. The Automated Commercial System (ACS),
which accounts for the revenue, lacks controls to detect and prevent excessive
drawback claims and payments. Additionally, ACS does not have the capability
to compare, verify, and track essential information on drawback claims to the
entries or export documentation upon which the drawback claim is based.
Further, drawback review policies do not require drawback specialists to review
all related drawback claims against the associated entries to determine whether,
in the aggregate, an excessive amount was claimed. Accordingly, CBP must rely
on a manual sampling approach to compare, verify, and match entries and export
documentation to drawback claims submitted by importers. As a result, the
inherent risk of fraudulent claims or claims made in error is high.

CBP is also responsible for collecting user fees from air passengers and
commercial vessels arriving in the United States, as required by Consolidated
Omnibus Reconciliation Act. The retailer of the passengers’ tickets must collect
the user fee and remit payment to CBP quarterly. The fees are designed to pay for
the costs of inspection services provided by CBP, which now includes INS and the
Animal and Plant Health Inspection Service (APHIS) inspection processes. CBP
tracks the fees in a database and follows up with delinquent carriers. However,
the list of retailers that are liable for payment cannot be reconciled with the user
fees that are due. CBP has no viable method to identify all parties selling tickets
subject to the fee. Accordingly, CBP cannot impose penalties on the ticket seller
not collecting the fee.




Status on the Department Management Challenges                              Page 17
 

             To comply with the reporting requirements of the ATSA, CBP mandated the
             use of Advanced Passenger Information System (APIS) to target people who
             could threaten homeland security. However, the APIS is utilized only by the
             enforcement branch of CBP, and the information gathered on arriving passengers,
             which includes the country of origin, is not shared with the financial staff
             responsible for collecting the user fees. CBP collects information regarding
             the number of passengers on each vessel by reviewing flight or ship manifest
             information that is entered into the Entry Clearance Arrival Record (ECAR)
             system. The information entered in ECAR does not include information
             regarding country of origin, and thereby does not specify the fee required from
             the passenger. As a result, CBP may not be collecting all the passenger user fees
             mandated by law from people entering the U.S.

             Between FY 1998 and FY 2002, the former Customs Service collected $1.1
             billion from the airlines. Now that CBP’s inspection workforce has expanded to
             include INS and APHIS inspection services it important that CBP ensure that the
             appropriate revenues are collected and are adequate to cover the costs of services
             provided.

             Similarly, TSA is also required by statute to impose a fee on passengers of air
             carriers and may impose a fee on air carriers for the difference between TSA’s
             costs of providing civil aviation security services, and the amount of passenger
             fees collected. These fees are designed to pay for the costs of providing civil
             aviation security services including: costs of screening personnel and their
             supervisors; equipment; federal law enforcement officers; and civil aviation
             security research and development. TSA should also ensure that the appropriate
             revenues are collected and are adequate to cover the costs of services provided.


Information Technology Management
             IT remains a major management challenge for the Department. IT systems and
             tools are fundamental to the programs and activities across the department used
             to accomplish its wide-ranging missions—from counter-terrorism to border
             protection to supporting internal department operations. Effectively managing
             the IT assets is not only critical to successfully achieving performance goals and
             maximizing returns on investments, it is also required by legislation. With central
             responsibility for ensuring effective IT management pursuant to the Clinger-
             Cohen Act and related legislation, the CIO is working to establish department-
             wide IT strategies and a consolidated framework for meeting mission needs. Key




Page 18                     Status on the Department Management Challenges
 

areas of focus include IT security, integrating systems, and ensuring effective
information sharing.

Securing the IT Infrastructure
To meet requirements of the Federal Information Security Management Act
(FISMA), the CIO is charged with developing and implementing a department-
wide information security management program that addresses the risks and
vulnerabilities facing DHS’ IT systems. Based on its annual FISMA evaluation,
OIG reported in September 2003 that DHS has made some progress in
establishing a framework for an IT systems security program. Such progress
includes establishing IT security policies and procedures and creating an
organizational unit headed by a Chief Information Security Officer to govern
information security department-wide. DHS also has instituted an Information
Systems Security Board to ensure systems security and effective IT portfolio
management as part of its overall capital planning and investment control process.

Currently, DHS must rely on its component organizations to follow its established
policies and procedures for implementing the IT security program. However,
as part of its 2003 FISMA evaluation, OIG reported that none of the DHS
components had a fully functioning IT security program, and there were a number
of key security areas that required management attention. Specifically, while
42% of DHS’ systems had security plans, only 37% of the systems had been
certified and accredited and only 39% had been assessed for risk. Further, only
21% of DHS’ system controls had been tested and evaluated, and only 11% of its
systems had contingency plans. Based on these findings, OIG recommended in its
evaluation report that the CIO designate information security a material weakness
at DHS. OIG made 5 additional recommendations in its FISMA evaluation to
assist DHS in establishing an effective information security program.

To address its information security needs, DHS has developed an information
technology security program strategic plan, with identified major program areas,
goals, and objectives, for migrating to a unified information security infrastructure
over the next 5 years. The plan outlines eight distinct security program areas:
program management and integration; compliance and oversight; security
architecture; continuity planning for critical department assets; information
security, training, education, and awareness; security policy; security operations;
and national security systems and computer security management. DHS
considers the first four of these security program areas as material weaknesses and




Status on the Department Management Challenges                               Page 19

          anticipates completing specific initiatives and achieving mature capabilities in all
          program areas by the end of FY 2005.

          Systems Integration
          Another challenge for the CIO is in establishing a department-wide IT
          infrastructure for effective communications and information exchange among its
          approximately 180,000 employees, largely drawn from the 22 legacy agencies. In
          this context, the CIO is charged with identifying IT assets and consolidating and/
          or integrating hundreds of systems from the transferred agencies.

          Taken together, DHS organizational elements have over 100 disparate, redundant,
          and non-integrated systems used to support a range of administrative functions,
          such as accounting, acquisition, budgeting, and procurement. To address
          these issues, DHS has established the “eMerge2” program, scheduled for
          implementation by September 2006. Program goals include implementing DHS-
          wide enterprise solutions to increase efficiency and effectiveness significantly,
          while optimizing investments. Based upon recent OIG discussions with
          management officials, the program’s design and acquisition phase is on schedule,
          and DHS has identified requirements, and has issued a request for proposals, for
          enterprise-wide solutions to meet mission requirements.

          Further, the CIO must ensure that individual technology investments are aligned
          with an overarching, department-wide framework for IT. To this end, the
          CIO has a stated goal of implementing “one network, one infrastructure” by
          December 2005. To establish the network, the CIO has established the Enterprise
          Infrastructure Board that meets periodically to discuss strategies for connecting
          the department networks, which include local area networks, metropolitan area
          networks, and wide area networks. The Enterprise Infrastructure Board is
          comprised of a number of project teams, such as the Network Security Board,
          which is tasked with implementing an initiative to institute the firewalls,
          routers, switches, and other technologies needed to secure DHS networks. DHS
          is enhancing ICE’s “backbone” to create the department-wide network that
          establishes data communications between all of its organizational elements.

          With release of the first version of enterprise architecture in September 2003,
          the CIO made progress toward the goal of one DHS infrastructure. However,
          this version only outlines a very general transition strategy that must be broken
          down further for the architecture to be implemented. Nonetheless, the enterprise
          architecture team is working with several large project offices, e.g., ACE and
          US-VISIT, to determine alignment to its transition strategy so that these project


Page 20                  Status on the Department Management Challenges

offices can begin building to the target architecture. Work is currently under
way on version 2 of the enterprise architecture. One of the objectives of DHS’
enterprise architecture team is to make the transition strategy in version 2 more
detailed and easier to implement.

Information Sharing
Interagency coordination and information sharing are critical to support DHS
counter-terrorism, law enforcement, and emergency preparedness and response
activities—several of the core reasons for which DHS was founded. In some
instances, systems enhancements and integration are required to facilitate the
communications and exchange across federal, state, and local government and
industry lines. For example, DHS faces a major challenge of working with
intelligence and law enforcement agencies to standardize and consolidate multiple
terrorist watch lists to control and protect U.S. borders and apprehend terrorists
in the homeland. Traditionally, terrorist watch list information has been compiled
and maintained in disparate federal agency databases, with no assurance that any
one list contains all of the identified names of potential terrorists. State and local
law enforcement officials typically have not had access to terrorist watch list
information.

Following the terrorist attacks of September 11, 2001, the Congress passed, and
the President signed, several pieces of legislation, including the Enhanced Border
Security and Visa Entry Reform Act of 2002 and the USA PATRIOT Act of
2001, which requires terrorist information sharing, as well as standardization and
consolidation of individual agency watch list systems.

DHS also has a key role in terrorist watch list consolidation. Specifically, the CIO
has the primary responsibility within the department for ensuring that the Terrorist
Screening Center’s (TSC) technical requirements are compatible with the various
systems that DHS currently uses or is developing to thwart terrorist activities.
The CIO has been coordinating with TSC representatives since the mid-October
2003 to provide requirements, technology, and communications support to the
TSC. The CIO will have ongoing involvement in this effort, as DHS plans and
implements changes to the screening and intelligence systems it uses to access
the TSC database. One goal is to implement “real-time” connections between the
systems that DHS and the TSC use in the terrorist screening process. Ultimately,
biometric identifiers are to be introduced to support the terrorist screening
process.




Status on the Department Management Challenges                                Page 21

               A number of DHS components, including TSA, CBP, CIS, and ICE, are major
               customers of TSC and also have significant roles in the consolidation efforts.
               If and when implemented, TSA’s Computer-Assisted Passenger Prescreening
               System (CAPPS II) will enhance DHS’ name-checking capabilities. CAPPS
               II will eventually connect with TSC systems. Together with officials from the
               Information Analysis and Infrastructure Protection (IAIP) directorate who are
               assisting the TSC, these DHS organizations have a vested interest in addressing
               the various concerns that have arisen related to consolidation of the terrorist
               screening process. These concerns include ensuring that the new system is
               designed to accommodate the various mission requirements of participating
               agencies, and that the flow of terrorist information data is not interrupted or
               delayed as new processes and systems are implemented.


Human Capital Management
               HSA gave DHS special authorization to design a human capital management
               system that fit its unique missions. On April 1, 2003, DHS announced that
               it would assemble a diverse team of employees from across DHS, the Office
               of Personnel Management (OPM), and representatives of the major unions to
               design DHS’ human capital management system. This team developed a range
               of options for pay and classification, performance management, labor relations,
               discipline and employee appeals that was presented to the Secretary and the
               Director of OPM.

               The decisions of the Secretary and the Director were published as proposed
               regulations in the Federal Register on February 20, 2004, with a request for
               public comment within 30 days. These new regulations will affect not only DHS
               employees, but possibly the entire civilian workforce, as the DHS system is used
               as a model for other civil service personnel systems.


Intelligence Matters
               DHS challenges include establishing effective working relationships with the
               Terrorist Threat Information Center (TTIC) and TSC; fully staffing the IAIP
               directorate; developing common standards for information sharing with relevant
               federal, state, local, and “first responder” entities; and identifying, validating,
               cataloguing, and prioritizing critical U.S. infrastructure protection. OIG will
               examine these areas as part of its FY 2004 performance plan.




Page 22                       Status on the Department Management Challenges
 

                           Agency Roles
                           HSA4 made the Under Secretary for IAIP responsible for, among other things,
                           accessing, receiving, and analyzing law enforcement information, intelligence
                           information, and other information from agencies of the federal government, state
                           and local government agencies, including law enforcement agencies, and private
                           sector entities, and integrating such information in order to: identify and assess
                           the nature and scope of terrorists threats to the homeland; detect and identify
                           threats of terrorism against the United States; and understand such threats in light
                           of actual and potential vulnerabilities of the homeland.

                           The TTIC and TSC were created after IAIP was established. The TTIC is
                           managed and funded by the Director of Intelligence and TSC is managed and
                           funded by the FBI. While the TTIC and the TSC are working toward building
                           an integrated intelligence analysis capability, there is still confusion within the
                           federal government and among state and local governments about the respective
                           roles of the TTIC, TSC, and the Information Analysis (IA) component of IAIP.

                           IAIP officials told OIG that, as a full member of the Intelligence Community (IC),
                           IA is committed to working with and through TTIC and the TSC both to obtain
                           and to make threat related information concerning the homeland accessible to the
                           appropriate parties. IA officials stated that it is currently fulfilling its mandate to
                           provide independent analysis of domestic threat related information provided to it
                           by its fellow members of the Intelligence Community (including TTIC) and other
                           DHS components. IA officials stated also that it is fulfilling its responsibility to
                           use that analysis to coordinate with Infrastructure Protection (IP) so as to protect
                           potential targets and create information products to warn relevant state and local
                           government officials and private sector leaders.

                           IAIP officials said that TTIC is responsible for collecting all threat related
                           information concerning the homeland from the IC and creating “broad picture”
                           reports, while the TSC is responsible for maintaining the database of known or
                           suspected terrorists submitted by a number of federal agencies. These missions,
                           while different, do require a great deal of communication and cooperation
                           between the entities. No one party is responsible for establishing clear guidance
                           on the role of each organization in establishing information and collection
                           requirements. Rather, the parties must work together to develop understanding as
                           to their respective roles and as best practices.



4
    Homeland Security Act of 2002 section 201.


                           Status on the Department Management Challenges                                 Page 23
          To protect and advance DHS equities, the deputies of both the TTIC and TSC
          are DHS employees. Additionally, analysts from DHS are assigned to both the
          TTIC and the TSC. These analysts and the Deputy Directors represent DHS
          interests within each organization, meet with senior leadership, and share with
          DHS/IA threat related information, as well as areas of concern and suggestions for
          improvement.

          As part of OIG’s FY 2004 performance plan, we will evaluate the challenges
          and results to date from DHS’ efforts to standardize and consolidate the various
          agencies’ terrorists watch lists. We will also assess DHS’ role in TTIC and TSC
          and the degree to which DHS IAIP needs are met through those organizations.

          IAIP Directorate Staffing
          The IAIP is understaffed. IAIP inherited positions from five legacy organizations
          at its inception, many of which were vacant. IAIP began to hire new employees
          in May 2003, and put into place an aggressive hiring strategy, recruiting talent
          both from the government and the private sector. During FY 2004, IAIP expects
          to complete hiring to its initial authorization, and simultaneously to begin to hire
          its FY 2004 staffing complement. Those positions will be both internal to IAIP
          and external placements, which have been verified as requirements, e.g., the
          TTIC, TSC, and field positions.

          Information Sharing
          In addition to producing intelligence, DHS must develop common standards
          for information sharing. Standards must include, at a minimum, a definition of
          the communications methods and protocols for sharing information and a set of
          common and consistent policies for retaining and disseminating shared data.

          DHS, through IAIP and the Science and Technology (S&T) directorate, are
          developing approaches for acquiring and implementing information sharing
          systems. DHS is currently working with various members of the IC to develop
          an existing product further that will allow for sharing and collaboration between
          organizations based on policies in a memorandum of agreement. Also, S&T is
          in the process of developing a Threat Vulnerability Integration System, using
          industry standard protocols through which each agency that provides intelligence
          to IAIP can submit information using its own format. Despite the differences in
          the underlying information sources, DHS expects the system to provide for an
          integrated analysis capability. Additionally, IAIP officials stated that a team is



Page 24                  Status on the Department Management Challenges

researching systems to transfer data from unclassified to classified networks and
will be reporting its findings soon.

Creating new processes and requirements creates a challenge. However, IAIP
officials say that they are not facing obstacles that would prevent information
sharing among DHS and its IC and law enforcement community partners. As
DHS matures, processes will become more advanced and fluid. IA officials
stated that they are currently receiving the threat related information needed to
assess threats to the nation. Some major milestones as IA continues to grow are
ensuring prompt access to all relevant internal and external information sources;
developing robust outreach from IA to all IC and law enforcement partners
and customers; establishing advanced exchange policies and procedures with
all partner organizations; completing a collection management plan to engage
federal, state and local entities in collecting and assembling information; and
ensuring full IA decision-making participation with IC and law enforcement
partners on intelligence requirements, tasking, and collection management.

Infrastructure Protection
Identifying, validating, cataloging, and prioritizing critical infrastructure, most
of which is owned by the private sector, and key assets, such as national symbols
and monuments, are vital to implementing a national infrastructure protection
plan. Once the critical infrastructure and key assets are prioritized into a national
list, the list will serve as a baseline for making decisions concerning which actions
should be taken first to safeguard critical infrastructure and key assets.

The IAIP has solicited data from state and local partners on certain critical
infrastructure and key assets and is compiling this data into a national asset
database. IAIP officials told OIG that the effort to categorize and prioritize
potential terrorist targets and develop lists of critical infrastructure is on schedule
and due to be completed no later than July 1, 2004. The identification of the
national asset list is an ongoing effort and will result in adjustments to priorities
as terrorist tactics and capabilities evolve and interdependencies are identified.
The course of action that is under way will aid the grant allocation process as
other DHS components depend on prioritized critical infrastructure information to
determine which assets to harden first and which homeland security technologies
to develop. IAIP officials told OIG that the IAIP has already provided a critical
assets list to ODP for two sets of grant allocations.




Status on the Department Management Challenges                                 Page 25

Border Security
              CBP and ICE share responsibility for ensuring the security of our borders. CBP
              focuses on security at and between the ports of entry along the border, and is
              responsible for enforcing customs and immigration laws, with emphasis on the
              movement of goods and people. Employees from the former Customs Service,
              INS, APHIS, and the Border Patrol work together to accomplish this mission.

              ICE focuses on enforcement of immigration and customs laws. The inspectors
              and agents place heavy reliance on various information systems and high
              technology equipment to secure the borders against terrorists, weapons of mass
              destruction, illicit narcotics, and other illegal activity. Prior to the formation
              of DHS, OIGs at DOJ and Treasury, as well as the GAO, identified numerous
              deficiencies in the systems used to track aliens, and in the deployment, use, and
              operational effectiveness of the equipment used to carry out the border security
              mission. To a great extent, these challenges remain, and are discussed below.

              Entry/Exit Control Issues at Land Ports of Entry
              Historically, development of a national entry-exit system has focused on
              establishing a process for air passengers at airport ports of entry (POEs). Airport
              POEs offer many logistical and control features that facilitate an entry/exit system
              that may not be duplicated at land POEs. Implementing the US-VISIT Program
              at land POEs will be a complex project that will have to identify operating
              requirements and develop integration and operability strategies with other
              systems. The sheer volume of daily traffic at the POEs also challenges the US-
              VISIT program at the land POEs. This traffic cannot be significantly impeded
              without causing significant economic and political problems.

              US-VISIT is required to be implemented at the top 50 land POEs by December
              31, 2004, and at remaining land POEs by December 31, 2005. The US-VISIT
              system is to provide the capability to record entry and exit information on foreign
              visitors who travel through United States air, sea and land ports, and will apply
              to non-immigrants holding non-immigrant visas. By reconciling entry and exit
              records, US-VISIT will identify visitors who have overstayed their period of
              admission.

              US-VISIT officials anticipate that $330 million appropriated for US-VISIT
              implementation will be released soon. GAO has reviewed US-VISIT’s
              expenditure plan and will report to Congress in March 2004. Once Congress
              approves the expenditure plan, the funds will be released.



Page 26                      Status on the Department Management Challenges
An integrated project team (IPT) will be used in the implementation of US-VISIT
at land border POEs. IPT members will come from CBP, ICE, TSA, and DOJ,
information technology, and other areas. The IPT team, which should be in
place by the end of March 2004, will finalize US-VISIT’s draft deployment plan
for bringing ports online through a phased rollout. The IPT team will address
operational issues of implementing US-VISIT at land POEs. Also, a new federal
regulation must be published to allow US-VISIT to be implemented at land POEs.

The US-VISIT Program Office has initiated a public relations effort to facilitate
implementation of US-VISIT on both the northern and southern borders. The
Border Guidance Network will enable US-VISIT officials to explain the US-
VISIT process, provide implementation updates, debunk myths about US-VISIT,
and allay fears. The network includes local chambers of commerce, trucking
associations, bridge and tunnel operators, etc. Through the network, the US-
VISIT Program Office will be able to work with and hear comments from groups
that will be affected by the implementation of US-VISIT at land POEs.

Environmental assessments have been completed for the top 50 land POEs to
clear the way for construction. While new lanes are not planned, land POEs may
need upgrades to secondary inspection facilities, networking capabilities, and the
installation of antennas for radio frequency (RF) technology in existing travel
lanes.

The US-VISIT Program Office is working to finalize plans to expand RF
technology to land border inbound and outbound travel lanes. While officials
there would like to deploy RF technology in all lanes, funds are an issue, so
the office is looking at having RF technology in at least one inbound and one
outbound lane at each land POE. The RF token will record an individual’s
entry to and exit from the United States. US-VISIT is also trying to determine
the best way to provide the RF token to the traveler e.g., attached to the Form
I-94, attached to the passport, or attached to/integrated into the B1/B2/border-
crossing cards (BCC). If the RF token is integrated into the B1/B2/BCC rather
than creating a sticker to place on existing cards, a card replacement plan will be
needed.

To facilitate travel through land POEs, US-VISIT will be deployed at secondary
inspection areas for land POEs rather than at primary inspection areas like air
and sea POEs. Non-immigrant visa holders are currently referred to secondary
inspection for completion of the Form I-94 at land POEs. So, US-VISIT will not
create an entirely new inconvenience for non-immigrants. Travelers using the
Secure Electronic Network for Travelers’ Rapid Inspection (SENTRI) Program


Status on the Department Management Challenges                               Page 27

          should not be affected by the implementation of US-VISIT at land POEs. These
          pre-registered, “low-risk” drivers and passengers will continue to use the same
          travel lanes, except US-VISIT will now be able to track their exits as well.

          Neither Canadian nor Mexican citizens are likely to see a large increase in lines
          and waiting times at border crossings. Most Canadians are not required to have
          visas to enter the United States and will therefore not be subject to US-VISIT
          requirements. Only Canadian and Mexican citizens entering the United States
          under visas will be registered in US-VISIT. Mexican citizens carrying B1/B2/
          BCC cards will have to declare whether they are entering the United States under
          the provision of the B1/B2 visa or under the BCC. Mexican citizens entering
          under a BCC and not going more than 25 miles past the border will not be subject
          to US-VISIT requirements. US-VISIT will coordinate with CPB on the method
          for best ensuring that Mexican citizens properly declare their travel intentions at
          the POEs.

          Primary Inspections at Air Ports of Entry
          The goal of the primary inspection is to admit legitimate travelers into the U.S.
          quickly and refer high-risk travelers and inadmissible aliens to a secondary
          inspection for a more detailed review. The DOJ OIG reported that CBP needs
          to improve: (1) the operational capability to perform passenger analyses prior
          to flight arrival; (2) the lookout system capability to provide primary inspectors
          with critical information such as stolen passports; (3) control of passengers who
          were referred for secondary inspections to prevent them from leaving the airport
          without appearing; (4) enforcement of the requirement for primary inspectors to
          query lookout databases; and (5) training provided to inspectors. CBP has made
          progress in each of these areas, as discussed below.

             §   Lookout System. Crucial to the function of CBP is the ability to link
                 immigration documents to people at POEs and to share data with
                 other agencies in order to detect fraudulent documents. CBP uses the
                 National Automated Immigration Lookout System (NAILS), a part of
                 the Interagency Border Inspection System (IBIS), to provide information
                 to inspectors at POEs. CBP is cooperating with the DOS and other
                 DHS components to ensure the integrity of the data share system and in
                 communicating policy changes to all employees.

             §   Passenger Analyses. CBP has increased the use of APIS to check
                 passenger information against the combined federal law enforcement
                 database, known as IBIS, which contains data from 22 federal agencies.


Page 28                  Status on the Department Management Challenges

       CBP also checks names against the FBI’s National Crime Information
       Center (NCIC) wanted persons list. In conjunction with the new ATSA
       requirements, CBP also upgraded and expanded its APIS system. ATSA
       requires all airlines flying into the U.S. to provide CBP with advance
       passenger information, the passenger manifest, and personal name and
       record data. The airline must transmit this data electronically to CBP
       upon take-off from foreign airports. Using the data, CBP is better able
       to identify persons posing a potential threat prior to their arrival at
       U.S. airports. CBP officials state that they have moved aggressively to
       achieve compliance from all air carriers as soon as possible. In less than
       a year they achieved a 99% compliance rate. CBP, through its combined
       customs and immigration authorities, uses that information to evaluate
       and determine which arriving passengers pose a potential threat risk. In
       conjunction with the new legislative requirement, CBP also upgraded and
       expanded its systems to ensure that APIS could keep up with the expanded
       workflow.

   §   System Training/Use. Due to the increased need to process alien
       information into a number of intelligence databases, CBP has initiated
       the training of new and experienced inspectors on the lookout system. It
       is the intent of CBP that additional system training increase inspector
       proficiency. CBP reports that it has revised training given to inspectors
       for their passenger analytical unit, rover team, and counter-terrorism
       airport response teams. CBP officials also state that CBP is training
       personnel in the proper use of the former INS’s Automated Biometric
       Identification System (IDENT) and the Federal Bureau of Investigation’s
       (FBI) Integrated Automated Fingerprint Identification System (IAFIS) to
       identify previous immigration violators, criminals and terrorists. This is in
       addition to training on lookout and APIS computer intelligence systems.

   §   Secondary Inspections: The DOJ OIG reported the need for improving
       airport secondary inspection facilities. Since it is the responsibility of
       the airlines to provide suitable facilities for inspections, CBP should
       timely and substantively communicate to the airlines any deficiency in the
       workspace provided. CBP officials state that CBP commissioned a task
       force in December 2003 to look at air facilities of the future. This group,
       working with TSA and ICE, is working on recommendations to increase
       the physical security of the airport facility, and the technical requirements
       for a secure exit solution.




Status on the Department Management Challenges                               Page 29
 

             §   Training. CBP is currently training personnel in the proper use of lookout
                 and APIS computer intelligence systems, analyzing travel patterns and
                 passenger identifications to determine trends, and educating inspectors on
                 how to increase computer proficiency.

          Deferred Inspections
          People seeking entry into the U.S. are required to pass through a primary
          inspection where inspectors examine documents, perform immigration and
          customs database queries, and question travelers. If an immediate decision
          regarding admissibility cannot be made, inspectors have the discretion to defer
          the inspection. The person is then allowed into the country and must report to the
          appropriate INS district office at a later date to complete the inspection.

          DOJ OIG reported that immigration officials failed to track these inspections
          to completion or to penalize people who fail to appear. Even though database
          systems existed that were capable of capturing and reporting the occurrences and
          outcomes of deferred inspections.

          CBP has made progress in addressing some of the recommendations made in
          the DOJ OIG report. CBP has established tougher criteria for determining who
          is eligible for deferred inspection. Those in “high-risk” groups can no longer
          receive deferred inspections. For instance, people with criminal records, who
          were previously allowed to receive deferred inspections in some circumstances,
          can no longer defer inspection because those with criminal records are
          inadmissible. Also, the authority to grant deferred inspections has been raised
          to a higher level. In addition, CBP has emphasized that deferred inspections
          were designed to deal with cases involving resolution of minor administrative
          deficiencies, usually forms or other paperwork, of those who would otherwise be
          admissible into the U.S. Finally, different thresholds have been established for
          allowing deferred inspections based on the current Homeland Security Advisory
          System threat level (i.e., different procedures during orange vs. yellow threat
          level).

          In tracking and documenting deferred inspections, CBP has revised Form I-
          546, the primary document for initiating, authorizing, and tracking deferred
          inspections, to require more information. The deferred inspection form is now
          electronic, rather than handwritten. Also, CBP moved many deferred inspection
          offices to port locations because prior locations are not part of DHS.




Page 30                  Status on the Department Management Challenges
 

If a person fails to appear for deferred inspection, CBP creates a lookout in
the NAILS, and the person’s name and information is referred to ICE for
investigation. If that person then attempts to re-enter the U.S. at a later date,
the NAILS lookout will notify inspections personnel, and the person will not be
allowed to enter.

Risk Management Approach for Inspecting Passengers at Sea
Ports of Entry
A DOJ OIG report found that the current capabilities for collecting, analyzing,
and sharing inspection data are insufficient for supporting an effective risk
management strategy. Methods used at the time of the report to record and
maintain inspection data made it difficult to conduct the type of analysis required
by an effective risk management strategy, not only at sea POEs that use manual
methods, but also at seaports using automated databases. In addition, the report
found that not all inspection data is complete or accurate, limiting the extent
to which immigration officials may be able to draw reliable conclusions about
immigration risks within the seaport environment. Finally, the seaports cannot
share or exchange inspection data easily. This further limits the ability to identify
any regional or national trends regarding immigration risks and to develop
subsequently an appropriate inspection strategy for addressing these risks.

Some cruise ship carriers voluntarily transmit passenger and crew manifest
information electronically through APIS prior to arrival at the POE or destination.
APIS is a nationwide automated system capable of performing database queries
on passengers and crewmembers prior to their arrival in or departure from the
United States. CBP, TSA, and the Coast Guard are coordinating APIS regulations
that should be published in 30-60 days and will make the submission mandatory.

As APIS data is received, a sea passenger analysis unit at each POE queries
against IBIS and the NCIC wanted persons database. The results of these queries
are used to identify persons of interest to interview and inspect at the POE. CBP
is sharing APIS data with the Coast Guard, and the two agencies are working
together to integrate APIS with the Coast Guard’s Electronic Notice of Arrival
System. This integration is expected to be complete in FY 2004. This will
enhance both agencies’ ability to identify passengers, crewmembers, and cargo for
more thorough inspection.




Status on the Department Management Challenges                                Page 31
 

          Integrated Fingerprint Systems
          Considerable effort has been expended over a long period of time to integrate the
          IDENT and IAFIS into an effective tool to identify illegal aliens apprehended
          entering the country. The integrated tool will be especially useful to identify
          aliens with outstanding criminal warrants and those on terrorist watch lists. The
          most recent DOJ OIG report acknowledged that the integration project had made
          considerable progress, but that there were serious concerns regarding program
          management, lack of program prioritization, and weak long-range planning.
          The Justice Management Division within DOJ was the project manager for this
          effort, coordinating activities of INS and FBI. With the establishment of DHS,
          it is unclear what agency is acting as the project manager and where program
          responsibility lies within DHS. The previous DOJ OIG report identified this
          situation as potentially detrimental to future integration efforts and likely to result
          in further delays.

          The DOJ Justice Management Division is anticipating full integration completion
          by the fall of 2008. This fully integrated IDENT system will be used by the US-
          VISIT program to process all visitors to the United States. Concern has been
          raised regarding the need for daily NCIC updates into the IDENT system and
          whether the FBI should have access to fingerprints collected by the US-VISIT
          biometric system.

          As of February 18, 2004, 55 sites have been deployed with the recently upgraded
          version of the software (i.e., 10 fingerprints are captured once and processed
          simultaneously in one report from both IDENT and IAFIS). This includes 29
          border patrol stations and 26 POEs. Ten prints capability has also been deployed
          to an additional 58 sites, including 30 ICE investigations offices, which allow
          them to capture and submit electronically prints to IAFIS only. There is also an
          effort to redeploy IAFIS stand alone units, originally deployed to Border Patrol
          and Inspections sites, to 20 ICE detention and removal locations to provide them
          connectivity to the FBI’s IAFIS system.

          In addition, the US-VISIT program has budgeted funds to continue deployment
          and use of the integrated IDENT/IAFIS functionality to support criminal
          identification and booking. However, the US-VISIT program has not initiated
          deployment with these funds, as there are concerns over the fingerprint image
          quality produced with the integrated version. In a joint effort, DOJ and DHS
          have been analyzing image quality data over the past few months in an effort
          to determine whether the increase in poorer quality images was the result of
          software, hardware, training, or physical set up. As part of this analysis, in


Page 32                  Status on the Department Management Challenges

January 2004, DHS deployed a new scanner at a few sites that had no previous
electronic ten print capabilities. The preliminary data has shown significant
increase in image quality. DHS has directed the IDENT contractor to provide a
software solution that is compatible with more scanners than the current version,
which works with just one type of scanner. DHS is waiting for an estimate of
how long this solution will take to implement.

Northern Border Issues
In February 2002 the DOJ OIG reported that northern border patrols required
additional personnel, equipment and intelligence support to perform enforcement
operations to the extent required for maximizing border security. CBP is
responsible for the security of the U.S.-Canadian border that includes waterways
and vast stretches of wilderness with minimal law enforcement presence. CBP
operates and manages of 86 official POEs, as well as numerous unofficial
crossings and public land straddled by national parks. Sufficient personnel, close
lines of communication, collaboration, and adequate equipment, and its use are
needed to ensure adequate security at the northern border.

CBP plans to increase the number of border patrol agents and inspectors on
the northern border. Also, CBP has negotiated with Canada to allow the Royal
Canadian Mounted Police to use the IBIS intelligence system when processing
border crossings. Along with this, CBP plans to incorporate aerial surveillance
and sensor technology that would increase the effectiveness of the border patrol
agents and inspectors.

Student Visa Tracking
The concerns associated with visa violators, especially students, continue to be
a national security issue. Previous DOJ OIG reports identified several issues
associated with the Student and Exchange Visitor Information System (SEVIS)
that included computer difficulties, the timeliness, accuracy and completeness of
the data in the system, the certification of schools that accept foreign students,
training of contractors and immigration and ICE personnel, oversight of
contractors conducting school site visits, oversight of schools’ compliance with
SEVIS requirements, procedures for identifying and referring potential instances
of student or school fraud, and resource levels for investigating potential fraud.
The issues identified by the DOJ OIG reports indicate that there are potential
areas where fraud or non-compliance with policies and procedures could lead to
breaches of national security.



Status on the Department Management Challenges                              Page 33

                          SEVIS is an automated process developed to collect, maintain, and manage
                          information about international foreign students and exchange visitors during their
                          stay in the United States. SEVIS was designed to respond to the national security
                          concerns raised by the DOJ OIG, Congress and the law enforcement community
                          by improving data accuracy and collection. SEVIS increases the ability of ICE
                          to maintain up-to-date information on foreign students and exchange visitors to
                          ensure that they arrive in the United States, show up and register at the designated
                          school or exchange program, and properly maintain their status during their
                          stay. It does so by combining input from government sources as well as schools
                          specially certified to lawfully enroll foreign students.

                          The USA PATRIOT Act required that SEVIS be implemented at schools for new
                          foreign students by January 1, 2003. Schools were given until August 1, 2003, to
                          enter all current students into SEVIS and to report their enrollment.

                          Also, as part of the requirements of the SEVIS program, Congress has mandated
                          that it be fully funded by user fees. ICE has proposed a fee regulation, with the
                          fee set at a level designed to fund the Student and Exchange Visitors Program
                          (SEVP) and compliance efforts related to SEVIS. The proposed regulation was
                          signed by the Secretary on February 19, 2004, and is under review by the Office
                          of Management and Budget. In addition to student fees, SEVP receives limited
                          funding from fees paid by schools in conjunction with applications for school
                          certifications (Form I-17). This fee is currently in place.

                          The DOJ OIG reviewed the INS’ system for monitoring and tracking foreign
                          students and reported that SEVIS would address many, but not all, of its
                          problems.5 DOJ OIG also evaluated INS’ progress in implementing SEVIS
                          and reported deficiencies in: capabilities for accessing the SEVIS system; the
                          processes for certifying schools as eligible to accept foreign students; training
                          of contractors, school and ICE personnel; oversight of contractors conducting
                          school site visits; the timeliness, accuracy and completeness of data in the
                          system; oversight of schools’ compliance with SEVIS requirements; procedures
                          for identifying and referring potential instances of student or school fraud; and
                          resource levels for investigation of potential fraud.6



5
   “Contacts with Two September 11 Terrorists: A Review of the INS’s Admissions of Mohamed Atta and Marwan Alshehhi,
its Processing of their Change of Status Applications, and its Efforts to Track Foreign Students in the United States” DOJ
OIG, May 2002
6
   “Follow-up Review on the Immigrations and Naturalization Service’s Efforts to Track Foreign Students in the United States
through the Student and Exchange Visitor Information System,” DOJ OIG Report Number I-2003-003, March 2003.


Page 34                                     Status on the Department Management Challenges

Responsibility for SEVIS transferred to ICE on March 1, 2003. Following the
transfer of SEVIS from CIS to ICE, SEVP was established in May 2003 and
became operational in June 2003 with 10 full-time positions. The SEVP Office
assumed responsibility for administering SEVIS at that time. ICE’s Compliance
Enforcement Unit (CEU) is responsible for enforcement investigations.

SEVP has addressed the access problems. All Department of State consular
posts now have the capability to view SEVIS information. There is an interface
between the SEVIS system and the Department of State’s Consular Consolidated
Database (CCD). Consular officers access CCD, which is populated with key
SEVIS information. A nightly interface of data updates any changes to a student’s
SEVIS record. All POEs have access to SEVIS in secondary inspection areas.
The SEVIS helpdesk is available to assist in resolving any computer problems
that do arise.

While authority to issue school certifications currently lies with CIS, both CIS
and ICE are working to formally transfer this authority to SEVP. Although a
delegation of authority transferring complete adjudicatory authority to SEVP
has not yet been signed, under a mutual agreement between CIS and ICE, SEVP
began adjudication of certain school certification applications on November 1,
2003. The School Certification Unit (SCU) within the SEVP Office initially has
10 full-time positions, which officials believe to be enough for the short term.
Once the student fee regulation is approved, managers will be able to staff this
area fully. Ultimately, SEVIS will be fully fee funded. The school fee is currently
being charged. The student fee will be charged following approval of the
proposed fee regulation, which is now under Office of Management and Budget’s
final review.

Based on data provided by SEVP officials, as of January 30, 2004, approximately
700 schools are in the certification and approval process, over 8,900 schools have
been certified as eligible to accept foreign students, and 750,558 active students’
and exchange visitors’ names are in SEVIS.

The SEVP Office is looking at ways to improve the school certification process.
Under the current process, contractors are used to conduct on-site investigations
at schools and government personnel evaluate both the contractor report and the
application for certification in making a decision whether a school should be
certified. The SEVP Office has developed a statement of work to ensure that an
improved certification process is comprehensive, efficient, and effective. Once
the contract is awarded, the contractor will have 6 months to complete the tasks
laid out in the statement of work. These tasks include conducting an independent


Status on the Department Management Challenges                              Page 35

          assessment of the current certification process; reviewing and developing school
          certification criteria; developing a complete training package for contractors,
          school personnel and ICE/SEVP staff; developing a strategic plan for the
          certification process; and determining the charges for school certification and re-
          certification. To assist contractors in effectively conducting school site visits, the
          SEVP Office is looking at developing 10-12 different site visit checklists tailored
          for different types of schools. Currently only one checklist is used for all schools.

          Currently, everyone in the SCU is located at headquarters; however, SEVP
          officials would like to move some school certification adjudicators into field
          locations eventually. This would allow adjudicators to become familiar with
          schools in a particular area, as well as with state laws, which must be taken into
          account when certifying schools. Also, a delegation of authority is necessary
          to give ICE the authority to adjudicate the school certification applications.
          Headquarters personnel are able to view information in SEVIS, but most
          are unable to adjudicate applications because the delegation of authority for
          adjudication remains with CIS. Only those adjudicators who were previously at
          CIS are currently able to adjudicate school applications.

          Recertification is required for schools every 2 years and includes a site visit.
          The SEVP Office is looking at recertification procedures, including options for
          making the recertification site visit more interactive, with school staff having
          SEVIS responsibility rather than simply verifying that the school exists and is
          legitimate. Recertification may include a review of the school’s SEVIS data for
          timeliness, accuracy and completeness and for compliance with SEVIS reporting
          requirements. A large recertification push will begin in May 2004 as many
          schools reach the two-year mark.

          Schools were required to have all continuing students entered into SEVIS by
          August 1, 2003. The SEVIS response team, a 24-hour hotline, was activated
          in the month of August 2003 to provide customer support to incoming foreign
          students and POEs if information was not correct in or was missing from SEVIS.
          During the time the hotline was operational, the SEVIS team had 24-hour access
          to school representatives if necessary. The SEVIS response team was activated
          again for January 2004; however, some of the response team staff was released
          early because they were not needed. SEVP officials attributed this to the system’s
          being used properly, people’s being aware of and educated about SEVIS, the
          system’s being accurate, and schools’ complying with SEVIS requirements.

          ICE’s CEU is responsible for enforcement investigations, which include
          investigation of aliens suspected of failing to maintain the terms of their student


Page 36                  Status on the Department Management Challenges

status, as reported in SEVIS. The SEVP Office is establishing an SEVP Liaison
Program for working with the CEU to identify student violators. Investigators in
the CEU pull reports from SEVIS weekly for a list of possible student violators.
The list is then vetted to create a “credible leads” list. Currently, investigators in
the CEU do final vetting of the list and often find, during the investigation, that
administrative or technical errors resulted in someone’s being placed on the list.
Under the SEVP Liaison Program, an SEVP CEU liaison will do a “final scrub”
of the data for administrative and/or technical errors before a final list is sent to
the CEU for investigation. Standard operating procedures for the program are
currently being finalized, and this revised process should begin in March 2004.

Identification, Location, and Removal Non-immigrant Overstays
Immigration officials have experienced significant problems identifying, locating,
and removing non-immigrant aliens who have overstayed their visas, who
have violated a notice to appear, or are otherwise reported to be out of status.
Immigration officials have also been largely unsuccessful at removing non-
detained aliens with final removal orders, removing only 13% of these aliens
according to a report issued by the DOJ OIG (DOJ report number, I-2003-004,
February 2003.) Moreover, INS was deficient at removing important subgroups,
removing only 6% of the non-detained aliens from countries that sponsor
terrorism, 35% of non-detained criminal aliens, and only 3% of non-detained
aliens denied asylum. The 2003 report followed up on a DOJ OIG report, issued
March 1996, I-96-03, which found INS removed 11% of non-detained aliens.
Some of the key DOJ OIG recommendations included: establishing annual goals
for apprehending and removing absconders and other non-detained aliens with
final orders; identifying the resources needed to achieve annual and strategic
performance goals, and ensure that resources are applied to all case types;
completing the rulemaking titled Requiring Aliens Ordered Removed from the
United States to Surrender to the Immigration and Naturalization Service for
Removal; and implementing with the Executive Office for Immigration Review a
shared data system, similar to IBIS, for case tracking to identify and process aliens
with final orders.

ICE has taken steps to address the recommendations cited in the report. In FY
2003, ICE asserts that removal of all aliens increased over 21% from FY 2002,
and absconder removals increased by over 46%. ICE developed a 6-year plan that
aligns its long-term detention and removal strategies with the resources that are
required to fulfill them. This plan was used to construct the FY 2005 President’s
Budget request. Once the FY 2005 budget is enacted, this 6-year plan will be



Status on the Department Management Challenges                                 Page 37

          revised and ICE will then set annual performance targets and develop future
          budget requests.

          Further, ICE’s Compliance Enforcement Office is now tasked to identify and
          locate overstays by using information provided by SEVIS and the National
          Security Entry Exit Registration System (NSEERS) databases, and the office
          is expected to use similar data from US-VISIT. In addition, ICE has created a
          program element specifically for fugitive operations. Guidance was provided to
          field offices on the use of personnel for fugitive operations, and employee costs
          associated with the program are being tracked.

          On May 9, 2002, INS published a second proposed rule, titled Requiring Aliens
          Ordered Removed from the United States to Surrender to the Immigration and
          Naturalization Service for Removal, that would broaden notification methods and
          require all properly notified aliens to surrender within 30 days. This new rule bars
          properly notified aliens who do not comply with the surrender requirements from
          applying for administrative relief from removal or from returning legally to the
          United States for 10 years. The rule applies to aliens currently in immigration
          proceedings. DOJ OIG reported that as of January 2003, the proposed rule was
          not final. ICE reports that a final version of the Surrender Rule is complete and
          awaiting approval from DHS for publication.

          The proposed budget for FY 2005 supports an increase of over $100 million
          for ICE’s Detention and Removal Program. This includes an additional $50
          million to expand the program to apprehend alien fugitives and includes 236 new
          positions. However, even when these additional resources are obtained, ICE will
          face challenges in training and deploying the new agents as hiring and training
          this number of agents will be a lengthy process. It will take 6 months to a year
          of on-the-job training to prepare the new agents adequately to handle a normal
          caseload. ICE will have to determine where to locate personnel to maximize the
          impact on the outstanding casework with respect to national priorities. ICE also
          faces a challenge in integrating the information contained in a number of “stove-
          piped” databases that are utilized to identify and track the fugitives and overstays.

          Institutional Removal Program (IRP)
          Under immigration law, most criminal aliens, including aggravated felons, are
          deportable. In many cases, these aliens are incarcerated at federal, state and local
          facilities serving out criminal sentences. The IRP is a national program that aims
          to: identify removable criminal aliens in federal, state and local correctional
          facilities; ensure they are not released into the community; and remove them


Page 38                  Status on the Department Management Challenges

                          from the United States upon completion of their sentences. This program was
                          developed with the cooperation of the Executive Office for Immigration Review
                          (EOIR) in 1988. Under this program, ICE identifies and processes appropriate
                          cases for removal from the inmate population. The cases are scheduled for
                          hearings with the cooperation of EOIR either on site at the penal facility or
                          through telephonic or video hearings. In this manner, when the alien has
                          completed service of the criminal sentence, the immigration hearing has already
                          been completed and the alien may immediately be removed upon coming into ICE
                          custody. The intent is to process aliens while in federal, state and local custody
                          to allow for their immediate removal upon release. Based on DOJ OIG reporting,
                          immigration officials have not determined the nationwide population of foreign-
                          born inmates, particularly at the county level. Without this information, they
                          cannot properly quantify the resources needed to identify and process fully all
                          deportable inmates. In addition, the report found that IRP interviews of foreign-
                          born inmates to determine deportability were minimal to non-existent. As a
                          result, many potentially deportable foreign-born inmates passed through county
                          jails virtually undetected.

                          The DOJ OIG reviewed the IRP process at the state and local level and the
                          inherent difficulties faced by the INS in coordinating with non-federal agencies
                          and reported that the INS had not effectively managed the IRP and expended
                          millions of dollars annually to detain criminal aliens due to failures in the IRP
                          process.7 The DOJ OIG recommended that INS: identify the total foreign-born
                          inmate population at the county, state and federal levels; determine the resources
                          for the IRP to cover the population fully; assess the risks involved with not
                          providing full coverage; strengthen IRP program management by accounting for
                          program expenses and dedicating resources to the program; implement a multi-
                          year plan to provide an expanded Detention Enforcement Officer position to staff
                          the IRP; and request that the Office of Justice Programs change current State
                          Criminal Alien Assistance Program8 (SCAAP) grant provisions to require, as a
                          grant condition, the full cooperation of state and local governments in the INS’
                          efforts to process and deport incarcerated aliens.

                          On November 25, 2003, ICE addressed these recommendations by stating
                          that they plan to issue a contract to identify the number foreign-born inmate
                          population (the contract has since been awarded) and have created specific
                          funding codes for the IRP to help track resources. Additionally, the FY 2005

7
 , “The Immigration and Naturalization Service, Institutional Removal Program”, DOJ OIG Report No. 02-41, September
2002.
8
  SCAAP is a DOJ grant program established to help state and local governments defray the cost of incarcerating criminal
aliens. FY04 appropriations are approximately $290 million.

                          Status on the Department Management Challenges                                           Page 39

          budget request of $30 million will significantly enhance IRP effectiveness, and
          states that IRP will continue to work closely with the Office of Justice Program
          on proposed changes to the SCAAP to leverage the cooperation and assistance of
          local incarceration facilities in reporting and processing the foreign-born inmates
          population.

          Currently, the IRP is due to move from ICE’s investigations office to ICE’s
          detention and removal office (DRO), once resources ($30 million) identified in the
          FY 2005 budget request are appropriated on or after October 1, 2004. A working
          group has been established to facilitate this transition; however, most of planning
          work is still in its preliminary stage.

          OIG recently initiated an audit of this program. The scope of the audit includes
          IRP activities since October 1, 2002.

          Detention Space Management
          In 2000, the INS apprehended 1.8 million aliens, many of whom are held
          temporarily before being voluntarily returned to Mexico. The number of aliens
          who must be detained for formal removal or other immigration proceedings
          has grown, from 72,154 in 1994 to 188,547 during 2001. To obtain additional
          detention space, the INS relied on outside contractors (state and local
          governments and for-profit entities) to house detainees. It is estimated that almost
          70% of the detainees are housed in non-federal detention facilities. The DOJ
          OIG audits of Intergovernmental Service Agreements for Detention Space with
          various local governments found several instances of significant dollar findings
          for unsupported costs that were submitted by contractors. One of the primary
          findings related to two counties was that the average detainee jail day rates were
          inflated because the entities understated average daily population that was used to
          determine the rate.

          The audits referenced above primarily address cost recovery issues and do not
          focus on how ICE is currently addressing detention space management issues or
          ICE’s integration into DHS. A senior DRO official stated that the move into DHS
          has had a positive effect on the DRO programs in that ICE is now solely a law
          enforcement agency. Prior to the creation of DHS, INS was alternating its focus
          and resources between immigration services and enforcement.

          DRO recognized the need for more, as well as improved, detention oversight.
          During the integration into DHS, DRO took the initiative to reorganize and create
          a “Detention Management Division,” which includes the “Detention Acquisition


Page 40                  Status on the Department Management Challenges

and Support Unit” and “Detention Compliance Unit.” These units are directly
tasked with correcting and controlling issues related to the detention process.

On June 27, 2003, DRO released its strategic plan identifying specific strategic
goals and objectives. One of the primary goals identified in the strategic plan
is the provision of safe, secure, and humane confinement of persons detained in
accordance with immigration law. The related objectives include optimization of
detention space for cost efficiency. In addition, DRO intends to utilize alternative
methods to detention, such as electronic monitoring, better to utilize its resources
while maintaining compliance with immigration law. Another objective is to
develop transportation and logistics systems to support detention and removal
operations more efficiently.

However, the DRO strategic plan identifies a number of additional weaknesses
that must be addressed. DRO lacks reliable models to determine what the
workload-to-personnel ratio should be, and DRO also does not currently have
adequate financial and resource tracking systems to conduct detailed analysis of
costs and resources. Also, staff and detention resources have not kept pace with
the increase in caseload. DRO has suffered from diversified and inconsistent
interpretation of policy and guidance within and between regions and districts.
DRO envisions further the development and deployment of national operations
and management plans which will have a positive impact on DRO operations.

DHS’s FY 2005 budget request includes an additional $5 million for bed space
to accommodate a higher volume of apprehended criminal aliens, which should
result in a higher appearance rate at immigration proceedings and a greater
number of removals and fewer absconders. The budget request also includes $11
million for DRO’s initiative for alternatives to detention to provide the resources
necessary to establish community supervision operations. The premise for this
initiative is that effective control of persons released into the community during
immigration proceedings or while awaiting removal will stem the growth of the
fugitive population.

Management of Unaccompanied Alien Juveniles in DHS Custody
A DOJ OIG report issued in 2001 identified several issues that indicated that
the welfare and safety of alien juveniles in INS custody may be jeopardized
because of problems with policies, procedures, data systems, conditions of
confinement, management oversight, and housing. The DOJ OIG report made 28
recommendations to improve the INS’ juvenile program. Unaccompanied alien
juveniles in INS custody were managed by INS until HSA established DHS and


Status on the Department Management Challenges                               Page 41

          transferred most of the alien juvenile custody responsibilities to HHS. The full
          range of care and custody issues regarding alien juveniles in federal custody are
          now managed by several agencies, including CBP, ICE, HHS’ Office of Refugee
          Resettlement (ORR), and DOJ’s Executive Office of Immigration Review. The
          welfare and safety of juveniles in federal custody has always been a concern but
          now that concern is magnified by the difficulties of managing a program across
          departmental boundaries.

          Responsibility for administering the juvenile program in DHS resides in the
          DRO. In addition, most INS functions associated with the care and housing
          of unaccompanied juveniles in federal custody as a result of their immigration
          status were transferred by HSA to ORR. A DRO official said that the transfer of
          responsibility for juvenile custody management to ORR has not gone smoothly or
          quickly. Despite the transfer of care and placement responsibilities to HHS by the
          HSA, DRO still retains much of the responsibilities for juveniles. ORR and DRO
          are working on a MOU that will spell out roles and responsibilities between the
          two agencies, but according to the DRO official, the development of the MOU has
          been very slow. Given the difficulty the two agencies are having in drafting the
          MOU, they have elected to develop a “statement of principles” as an interim step.
          This document will be a concept paper describing general operational policies
          between the two agencies. DRO officials expect the statement of principles to be
          concluded by the end of March, but did not have an estimated date for completing
          the MOU.

          One of the many challenges still facing DHS is the development of long-range
          program objectives and strategies for the juvenile program. DHS has policies
          and procedures in place for managing juveniles in its custody from the time of
          apprehension until placement in a juvenile detention facility. However, these
          policies and procedures were carried forward from legacy INS manuals, and DHS
          still does not have a full set of policies and procedures to govern the transfer of
          apprehended juveniles to HHS. Because of the reorganization of immigration
          functions within DHS, and the transfer of most functions to HHS, these policies
          and procedures must be reviewed and modified to adopt them to the new
          operational environment.

          Further complicating current juvenile program activities is that DRO, which has
          responsibility for administering the DHS juvenile program, is located within ICE
          and separated from CBP, which apprehends and takes initial custody of juveniles.
          There is no established chain of command to enforce juvenile program policies
          and procedures between CBP and ICE.



Page 42                  Status on the Department Management Challenges

               Since the issuance of the DOJ OIG report and prior to the formation of DHS, the
               DOJ OIG and INS closed eight recommendations. Little attention has been given
               to closing the remaining open recommendations. This is not surprising given
               the lack of the development of the MOU between DHS and HHS, the chain of
               command issues between ICE and CBP, and the department’s yet to be developed
               long-range plans for the juvenile program.

               We analyzed the remaining open recommendations and found some of the
               responsibilities still remain with DHS, some with HHS, and one will require joint
               action.


Transportation Security
               Two of the greatest homeland security challenges facing DHS over the past year
               has been the ongoing effort to implement ATSA and the MTSA. To this end,
               TSA and the Coast Guard have made great progress in implementing critical
               components of the legislation and, as a result, our nation’s defense against
               international terrorism has never been stronger.

               However, despite the progress that has been made over the past year, tight
               legislative deadlines, a shortage of trained and qualified personnel to oversee
               and implement the legislation, delays in the acquisition and implementation
               of technological solutions, and a shortage of critical infrastructure to support
               homeland security initiatives, continue to challenge TSA and the Coast Guard.

               Implementation Of ATSA
               On November 19, 2001, ATSA was enacted, creating the TSA within DOT. TSA
               was delegated the responsibilities for:

                  §   Federal security screening operations for passenger air transportation;

                  §   Developing standards for the hiring and retention of security screening
                      personnel;

                  §   Training and testing security screening personnel; and

                  §   Hiring and training personnel to provide security screening at over 400
                      commercial airports in the United States.




              Status on the Department Management Challenges                               Page 43
 

          In addition, the ATSA established two critical deadlines for federalizing the
          screening workforce and for screening all checked baggage:

             §   First, TSA was required to have enough federal screeners in place to
                 conduct the screening of passengers and their carry-on property at all
                 commercial airports by November 19, 2002.

             §   Second, TSA was required to have a sufficient number of explosives
                 detection systems (EDS) in place to screen all checked baggage by
                 December 31, 2002.

          Since TSA was built from the ground up, there was little existing infrastructure
          in place, and TSA had to rely extensively on contractors to support its mission
          and meet mandated deadlines. The agency hired contractors to help hire and
          train passenger and baggage screeners. NCS Pearson was hired to recruit,
          assess, and hire the nationwide screener workforce, as well as to provide human
          resources support for all TSA employees. Lockheed Martin provided support
          for the federalization of passenger screeners and upgrading passenger screening
          checkpoints under contract with TSA. Boeing Services Company was hired to
          execute TSA’s EDS deployment strategy for meeting the December 31, 2002,
          deadline, as well as to train a workforce estimated at 21,600 to operate the
          checked baggage screening equipment.

          Although TSA met the deadline for federalizing the screening workforce, due
          to the fast paced hiring, training and deployment of screeners, TSA was not
          able consistently to maintain the highest quality of training nationwide. From
          mid-September through mid-October 2002, TSA trained, on average, over
          5,000 screeners each week. Despite TSA’s and Boeing’s best efforts to meet
          the December 31st deadline, they acknowledged that approximately 5% of the
          airports would not be able to meet the deadline due to significant issues relating to
          construction necessary to complete the equipment installation.

          Consequently, HSA granted a one-year extension to the checked baggage
          screening deadline for those airports not meeting the original deadline. HSA also
          required the Under Secretary of Transportation for Security (now TSA) to submit
          every 30 days a report to Congress describing the progress made toward meeting
          the checked baggage screening requirements at each airport.




Page 44                  Status on the Department Management Challenges
 

       Screener Recruitment

In February 2003, the DOT OIG issued an audit report on TSA’s screener security
program. They found that while TSA had made tremendous strides in hiring and
training a qualified and professional workforce to conduct passenger and checked
baggage screening at the nation’s commercial airports, additional actions were
needed. The DOT OIG recommendations included the need for TSA to: develop
detailed and justifiable staffing plans for each airport; evaluate the supervisory
positions for each airport and establish a policy for relocating extra supervisory
screeners to airports where shortages exist; develop better controls for contract
oversight, ensure contractors provide reliable data, and closely monitor contractor
performance and costs; and expand future Federal Managers Financial Integrity
Act (FMFIA) reporting of control weakness to include TSA’s lack of contract
oversight for all major contracts.

To address these recommendations, TSA reports it has taken the following
actions:

   §   Staffing plans have been developed for airports to transition from full-
       time to a mix of full and part-time staffing models and TSA is now in the
       process of converting the screening workforce to between 20-30% part-
       time employees at each airport.

   §   A “right sizing” effort has begun to determine the right number of 
 

       supervisory and lead screeners necessary at airports.
 


   §   Contract management teams have been established on each of TSA’s
       major programs.

TSA’s lack of contract management oversight for major contracts was reported
as a material weakness in its FY 2003 FMFIA Report. TSA is taking steps to
address that weakness, such as increasing the size of its contract management staff
and developing policies and procedures to better manage its contracts. Also, the
Defense Contract Audit Agency (DCAA) has performed over 130 contract audits
for TSA and supports contract administration in six functional areas.

We are currently reviewing TSA’s management of the screener recruitment
program, focusing on how costs were incurred and managed. At TSA’s request,
DCAA is conducting a concurrent review of costs incurred by the primary
contractor for the assessment centers, NCS Pearson. The Defense Contract
Management Agency (DCMA) was also asked to assist and strengthen all contract



Status on the Department Management Challenges                              Page 45

                         oversight functions. The OIG and DCAA are coordinating efforts on both
                         audits, with DCAA focusing on the contractor’s role and contract costs incurred,
                         while OIG focuses on TSA’s management of both its recruitment effort and its
                         contractors.

                         DHS OIG recently issued a report on TSA’s background checks for screeners.9
                         We found that TSA completed up to 4 background checks for each of the nearly
                         56,000 screener appointees, as well as for thousands of unsuccessful applicants.
                         In total, over 360,000 background checks were conducted by contractors.
                         However, TSA was responsible for managing the contractors’ work, tracking
                         background check progress and completion, making final suitability decisions,
                         and terminating employees who failed the checks. The deadlines were short, and
                         the scale of hiring was large. Despite contractor support, TSA was not able to
                         manage the background checks in an orderly and consistent manner.

                         As a result of TSA’s poor management and oversight of its contractors, thousands
                         of airport security screeners began working without completed background
                         checks, including 85 convicted felons who were later fired. In addition, after
                         these problems were brought to TSA’s attention, the agency, in an effort to fix the
                         problem, then erroneously fired 169 screeners who had clean backgrounds.

                         The OIG’s report on background checks made 12 recommendations including:

                             §    Completing screener position risk designations;

                             §    Completing the comparison study of the effectiveness of OPM and private
                                  sector background checks;

                             §    Ensuring that all screeners undergo a fingerprint based criminal history
                                  records check and receiving a favorable adjudication before they begin
                                  training and work; and

                             §    Creating a personnel security tracking system that provides management
                                  with accurate, timely, and integrated information on the status of security
                                  investigations.

                         TSA has taken corrective action to address some of the issues raised in the OIG’s
                         report. For example, processes have been implemented to ensure that fingerprint
                         based criminal history checks are conducted for each candidate and that they are


 Review of Background Checks for Federal Passenger and Baggage Screeners at Airports”, Transportation Security
9”

Administration (Report No. OIG-04-08, January 2004)


Page 46                                   Status on the Department Management Challenges
successfully adjudicated before the candidate is hired. Screener candidates are
also subjected to a procedure that checks their criminal and credit history and
compares their names against specific watch lists.

The DOT OIG also found that during the time of greatest hiring TSA provided
minimal oversight of NCS Pearson’s processing of new employees and entering
their data into the personnel system. At the time, TSA had very little existing
infrastructure in place to provide the much needed contract oversight. There were
significant and widespread problems with individual pay, benefits, withholdings,
and leave accruals. TSA changed its human resources support contractor in
January 2003, and directed the contractor to separately track costs for correcting
identified errors or deficiencies in the personnel files.

Furthermore, from February to December 2002, overall cost of the contract
grew from $104 million to an estimated $729 million. Part of the growth can
be attributed to changes in the estimated size of the TSA workforce and the
immensity of the task at hand. However, TSA’s lack of management oversight
and cost controls over the contract also contributed to the rising costs.

TSA has requested $150 million for recruitment, qualification and examination of
screeners and other professional, administrative, technical and support personnel
in its FY 2005 budget.

       Screener Training

TSA’s task of hiring and training a large federalized security workforce of
approximately 56,000 screeners was unprecedented. The agency overcame many
challenges in order to accomplish this feat. However, the success in converting
a private workforce to a federal one did not come easily or without problems.
Due to the hectic pace of hiring and training a workforce of that size within just
a few months, TSA was not able to consistently maintain the highest quality of
classroom and on-the-job training.

In the DOT OIG’s audit report on TSA’s screener security program, two
recommendations were made to address deficiencies in TSA’s screener
workforce training program. First, TSA must develop performance standards
for the screening workforce that link performance assessments with the
results of operational testing. The second recommendation suggested specific
improvements to strengthen recurrent and advanced technology training. A DHS
OIG review of screener performance led to additional specific recommendations
for improvements in screener training.



Status on the Department Management Challenges                             Page 47

          To ensure the screener workforce has the knowledge and skills necessary to
          keep the flying public safe, ATSA requires screeners to be subjected to an annual
          proficiency review. Essentially, screeners must be re-certified every year. The
          law states that a screener may remain in that capacity only if he or she: continues
          to meet all qualifications and standards required to perform a screening function;
          has a satisfactory record of performance; and demonstrates current knowledge
          and skills necessary to perform screening functions vigilantly and effectively. Re-
          certification consists of the knowledge and skills assessment program and the final
          rating on the performance agreement.

          Within the knowledge and skills assessment program, there are 3 modules that
          evaluate a screener’s job knowledge, image proficiency, and practical skills
          demonstration:

             §   The job knowledge module is referred to as the standardized proficiency
                 review (SPR) and is a computerized, 50 question multiple-choice test.
                 The SPR is either passenger or baggage screener specific and is used to
                 evaluate a screener’s knowledge of standard operating procedures.

             §   The image proficiency module includes a computerized test that consists
                 of 100 images and is used to evaluate a screener’s skill and ability in
                 detecting threat/prohibited items within x-ray images of baggage.

             §   The practical skills demonstration module is a hands-on simulated work
                 sample used to evaluate a screener’s knowledge, skill, and ability when
                 performing specific screener tasks along with their ability to provide
                 customer service.

          Results of these tests are based on a “Pass/Fail” system. If screeners fail any of
          these modules, they will receive study time and/or remediation and one retest
          opportunity. Both passenger and baggage screeners must pass the job knowledge
          and practical skills demonstration modules. In addition, passenger screeners must
          pass the image proficiency module.

          On December 12, 2003 TSA’s Office of Workforce Performance and Training
          issued interim guidance to the Federal Security Directors (FSD) on recurrent
          training. In addition to updating recurrent training standards, this office is
          developing a screener training management directive to establish a national
          policy relative to all screener training requirements. Each FSD is responsible
          for establishing a training program schedule that meets the intent of the standard
          as well as the specific performance and developmental needs of each screener.



Page 48                  Status on the Department Management Challenges

According to the guidance, scheduled duty time is to be used by the FSDs to
accomplish recurrent, administrative, and professional development training. For
both screening procedure review and x-ray interpretation, additional practice is
recommended.

TSA acknowledges that more screener training is needed and is in the process of
providing new and improved screener training. For example, 2 computer based
training courses have been developed to provide technical skills and enhance x-
ray interpretation skills. In addition, training videos on x-ray operations, metal
detectors, and physical bag search have been sent out to the field. The agency has
allocated $145 million for training in its FY 2005 budget.

       Screener Performance

DHS OIG’s recently concluded audit of screening procedures at selected airports
consisted of undercover tests of screener and equipment performance. Results
of testing indicate the need for system-wide improvement in the following areas:
training, equipment and technology, policy and procedures, and management
and supervision. Between November 2001 and July 2002, the DOT OIG had
conducted similar tests of airport security; however, the DOT testing was
completed prior to the federalization of the screening workforce.

Shortly after TSA was established, the Office of Internal Affairs and Program
Review (OIAPR) was created. The mission of this office is to ensure the
integrity of TSA’s programs and operations. To accomplish this mission, OIAPR
developed program objectives to evaluate the performance of TSA’s hired and
trained screener workforce and to assess the adequacy of security systems and
controls at commercial airports nationwide. As part of its mission, OIAPR is also
responsible for conducting covert testing to assess the effectiveness of aviation
security. As required by law, screeners who fail an operational test must undergo
remedial training before they are permitted to return to the position at which they
failed the test.

To its credit, TSA has some initiatives under way that should help improve
screener performance. One such initiative is the implementation of an enhanced
version of the Threat Image Projection (TIP) System. TIP is a system that
superimposes threat images on x-ray screens during actual operations and records
whether screeners correctly identify the threat object. By frequently exposing
screeners to images of a variety of dangerous objects, TIP provides continuous on-
the-job training and immediate feedback and remediation. TIP allows supervisors
to monitor screener performance and improvement closely. The enhanced


Status on the Department Management Challenges                              Page 49

          version is much more comprehensive then the previous version which consisted
          of just a few hundred images. Now, the TIP library consists of approximately
          2,400 images. Deployment of the expanded TIP library on all Tip-Ready x-ray
          machines is nearly completed.

          Another initiative is TSA’s plan to focus special attention on those airports with
          below par performance on covert testing. TSA will establish teams of industrial
          engineers, trainers, performance consultants, and technology and management
          experts who will identify the causes for poor performance at these airports and
          work with FSDs to devise and implement solutions. Follow-up will include
          additional covert testing to determine whether screener performance has improved
          and FSD accountability for any continued performance deficiency.

                 Screening Deadline for Checked Baggage

          ATSA mandated that all United States airports have sufficient explosives detection
          systems to screen all checked baggage by December 31, 2002. TSA entered into
          a $508 million contract (with $862 million in options through calendar year 2007)
          with Boeing Services Company to execute its deployment strategy for meeting the
          December 31st deadline. Boeing was tasked to complete airport site assessments
          at over 400 airports scheduled between July and November 2002; submit a
          proposal to TSA on the right mix of equipment for each airport and where the
          equipment would be installed; modify facilities to accommodate the equipment;
          install and make the equipment operational; maintain the equipment; and train
          about 21,600 people to operate the checked baggage screening equipment.

          This requirement to screen all checked baggage was interpreted to include the use
          of both EDS and Explosives Trace Detection (ETD) machines. EDS machines are
          TSA certified and use computed tomography (CT) technology to detect explosives
          in checked baggage automatically. This technology, similar to that used in
          medical CT scans, uses transmission images (“slices”) taken at many different
          angles through an object to produce a three-dimensional image of the object.
          ETD machines are devices designed to detect trace amounts of explosives residue
          by analyzing a swab rubbed against the item, such as passengers’ checked and
          carry-on baggage. The device will alarm if it detects the presence of explosives
          particles. ETD’s dependence on an operator’s ability to collect explosives
          particles before the machine can begin to perform its detection functions makes it
          vulnerable to human error.

          Although TSA and Boeing worked feverishly to meet this deadline, about 5%
          of the required airports were unable to meet the deadline. HSA granted a 1-


Page 50                 Status on the Department Management Challenges
year extension to the checked baggage screening deadline for those airports
not meeting the original deadline. HSA also required the Under Secretary of
Transportation for Security (now TSA) to submit a report to Congress every 30
days describing the progress made toward meeting the checked baggage screening
requirements at each airport.

OIG found that TSA’s monthly report to the Congress on deployment of EDS
and ETD devices described the progress of installing and deploying electronic
screening systems based solely on delivery, installation, and site acceptance
testing of the equipment. TSA did not take into account airports that would
not meet the deadline due to other factors, such as insufficient screening staff,
ongoing construction, and/or physical space constraints. In addition, OIG
reviewed TSA’s October 2003 monthly report and, based on a sampling of airports
in an ongoing review of EDS installations, concluded that more airports should be
added to the report since they would not be able to screen all checked baggage by
the December 31, 2003 deadline due to these other factors. TSA identified even
more airports that should be reported and added all to its December 2003 and
January 2004 reports to the Congress.

       Integrating EDS into Baggage Handling Systems

In May 2002, TSA reported to Congress on its deployment strategy for meeting
the December 31, 2002, deadline to screen all checked baggage. A two-phased
approach was planned. The initial phase involved an interim solution to meet the
deadline where some airports would use EDS, with ETD machines used only for
resolving alarms; others would use ETD exclusively; and some would use a mix
of EDS and ETD to screen checked baggage. An interim solution was selected
because it was not possible for manufacturers to produce enough EDS machines
to screen all checked baggage; and, even if they could, there would not be enough
space in airport lobbies to install the EDS machines. Further, it was not possible
to complete the necessary modifications to baggage handling facilities to integrate
EDS into the baggage handling systems

In the second phase, TSA will integrate the EDS machines into the baggage
handling systems at selected airports. The air carriers’ conveyor belts will
directly feed EDS machine conveyor belts without human intermediaries. As
an automated system, this will minimize human involvement (thereby limiting
possible human error), dramatically speed throughput, and increase effectiveness
and efficiency. A major issue is funding the next phase of EDS integration. Thus
far, nearly all EDS equipment has been lobby installed. TSA’s second phase is
by far the most costly aspect of full implementation. The task will involve not


Status on the Department Management Challenges                              Page 51

          simply moving the machines from lobbies to baggage handling facilities, but will
          require major facility modifications.

          Airport operators are now applying to TSA for letters of intent (LOI) for
          assistance in funding construction to support EDS integration. TSA has been
          given legislative authority to fund up to 75% of the necessary infrastructure
          changes. The LOIs do not cover the cost or installation of the machines, but
          instead covers facility modification costs. Currently, over 100 of the 429
          commercial airports have EDS machines. It is uncertain how many of these
          airports will be able to receive TSA funding to support installation of an in-line
          system, nor is it known how many will fund an in-line system without TSA
          support. To date, 36 formal requests for LOIs supporting an in-line screening
          solution have been received. In addition, at least a dozen LOI inquiries have also
          been made. According to TSA, the agency has committed $259.4 million for FY
          2003 and FY 2004 reimbursements.

          TSA’s total budget request for FY 2005 for the purchase and installation of EDS
          and ETD equipment is $400 million. In addition to this amount, prior year
          resources are available to support EDS in-line integration. According to TSA,
          their spending plan for EDS in-line integration for FY 2005 totals $601.7 million,
          which includes $512.4 million for EDS purchase, installation, and reimbursement
          to LOI airports for required facility modifications. It also includes $37.5 million
          for technical support and $23.4 million for purchase and installation of EDS
          equipment for AIP airports.

                 Screening Air Cargo

          In addition to mandating the screening of all passengers and property, including
          cargo, mail, and carry-on and checked baggage that is carried on passenger
          aircraft, ATSA also requires having a system in place “as soon as practicable”
          to screen, inspect, or otherwise ensure the security of cargo on all-cargo aircraft.
          Since the tragic events of September 11th, TSA has focused most of its efforts on
          meeting deadlines for passenger and baggage screening requirements. Both TSA
          and CBP have responsibility for the screening of cargo depending on whether it is
          domestic or inbound international cargo. CBP has no authority to target or inspect
          domestic shipments of cargo except in connection with investigations.

                 Domestic Cargo

          Cargo can be transported on passenger or all-cargo aircraft only if certain
          requirements are met. A “known shipper” program is used to screen cargo. A



Page 52                  Status on the Department Management Challenges
“known shipper” is one who has a customer record and either an established
shipping contract or business history. As previously reported by the DOT OIG,
cargo from a known shipper is transported on passenger aircraft. TSA has not
authorized air carriers to transport cargo from unknown shippers on a passenger
plane.

Cargo screening is the responsibility of the air carrier, not TSA. Indirect Air
Carriers (IAC) tender cargo to the air carriers and certify whether the cargo is
from a known or unknown shipper. In addition, some IACs can screen cargo if
approved by FAA/TSA. The effectiveness of this program is dependent on the
reliability and truthfulness of the IAC and air carriers.

The DOT OIG’s report “Audit of the Cargo Security Program”, dated September
19, 2002, identified several deficiencies in the known shipper program. One
of the DOT OIG’s recommendations was to develop a strategic plan to achieve
the goal of screening all cargo. TSA issued its “Air Cargo Strategic Plan” in
November 2003. In their own words, this plan “…details a multiphase, risk-
based blueprint for implementing a comprehensive air cargo security approach by
applying existing capabilities and pursuing emerging technologies.”

According to TSA, the known shipper program (as originally defined by FAA) has
been modified to require that air carriers and indirect air carriers undergo more
stringent scrutiny. In addition, a certain percentage of known shipper cargo must
be inspected prior to transport. The agency also stated that it is in the process of
deploying its known shipper database that, among other things, will centralize
data and allow air carriers and IACs to check a current list of known shippers
before accepting a package for transport. OIG is currently reviewing the known
shipper program.

       Inbound International Cargo

As required by ATSA, TSA took over the responsibility for civil aviation
security functions from FAA. TSA works closely with the International Civil
Aviation Organization, a specialized agency of the United Nations, to strengthen
international cargo security standards and to ensure compliance with them
throughout the international aviation system. TSA relies upon the air cargo
inspection processes being accomplished at the foreign departure points and must
abide by rules and laws of each country. Each country is bound by a separate
international security agreement and a TSA approved security plan. Inspection
methods and the level of inspections performed may vary from country to country.




Status on the Department Management Challenges                              Page 53

                             Both CBP and TSA have responsibilities for international cargo security. TSA’s
                             responsibility begins with assessments of foreign airports and air carriers for
                             compliance with the international cargo security standards. TSA is required by
                             law10 to assess the effectiveness of the security measures at foreign airports that:
                             are served by U.S. airlines; are a point of departure for foreign airlines traveling
                             to the U.S.; pose a high risk of introducing danger to international travel; and are
                             considered appropriate by TSA. Federal regulation11 requires foreign air carriers
                             operating in the U.S. to submit security programs to TSA for their operations, to,
                             from, and within the U.S. TSA does not have authority at the foreign points of
                             departure to inspect or examine shipments or containers.

                             CBP is focused on ensuring security for all imports entering the United States,
                             while facilitating trade and inspections for air cargo at domestic airports. CBP
                             relies heavily on the advanced information it receives electronically through the
                             automated manifest system (AMS) to select cargo for inspection. In the sea and
                             land environment, this selection is made using the automated targeting system
                             (ATS) .

                             On December 5, 2003, CBP published the final Trade Act regulations in the
                             Federal Register. The rules require advance transmission of electronic cargo
                             information to CBP and provided for various effective dates, depending upon
                             the mode of transportation. For the air mode of transportation, manifests must
                             be transmitted four hours prior to the plane’s arrival. For North American Free
                             Trade Agreement, Central American, and South American countries the required
                             transmission is at the point of takeoff. However, the implementation of this
                             requirement has been delayed. CBP officials note that on March 4, 2004, a
                             notice was published that provides for the implementation of air cargo manifest
                             requirements later this year to fulfill the security needs but permits time for the air
                             industry to update their systems in order to comply.

                             TSA’s FY 2005 budget includes $55 million to continue air cargo security
                             research and development, including identifying more efficient and effective
                             technologies that can better detect threats in or from air cargo. For example,
                             TSA is researching an innovative technology intended for use at airport screening
                             checkpoints. This x-ray technology has the potential to provide screeners with
                             high-resolution 3-D images that can be rotated on the screening monitor for
                             optimal viewing, enabling screeners to identify both explosives and weapons.



10
     49 U.S.C., Chapter 449.
 

11
     Title 49 Code of Federal Regulations (CFR) Part 1546.
 



Page 54                                        Status on the Department Management Challenges
This technology might significantly enhance current screening checkpoint
capabilities.

In its FY 2005 budget submission, TSA said that it will continue advanced
research to improve detection capability, performance, and efficiency to inspect
more bags, and counter emerging threats. This includes human factors research;
in-house development and testing of EDS, ETD, metal detectors, and other
emergent security technologies; biometrics for access controls and passenger
baggage tracking; and vulnerability assessments of explosive threats to aircraft,
ferries, trains, buses and other modes of transportation.

Implementation Of MTSA
The 361 public ports in the United States are an integral part of our nation’s
commerce and public transportation system, accounting for 95% of the U.S.
foreign trade. They encompass 26,000 miles of navigable waterways and more
than 3,500 marine terminals (port facilities). Passenger ferry and cruise ship
terminals embarked 119 million passengers and 32 million vehicles during 2003.
According to the Coast Guard, the total volume of goods imported and exported
through U.S. ports is expected to more than double over the next 20 years.

The Coast Guard is the lead DHS component responsible for developing,
implementing, and overseeing MTSA implementation. To date, the Coast Guard
has overcome many challenges in its efforts to implement MTSA requirements.
These challenges include:

   §   Working cooperatively with the 103-member International Maritime
       Organization to resolve sovereignty issues associated with the adoption of
       the new International Ship and Port Facility Security Code;

   §   Convincing the International Maritime Organization to accelerate
       implementation of Safety of Navigation regulations requiring automatic
       identification systems fitted aboard vessels by December 31, 2004;

   §   Implementing final rules for area maritime security committees, 
 

       assessments, and plans; and, 
 


   §   Completing MTSA, area, vessel and facility security plans by July 1,
       2004.




Status on the Department Management Challenges                               Page 55
 

                           Although the Coast Guard has achieved success in meeting initial MTSA
                           milestone dates, its ability to meet its self-imposed date of December 31, 2004,
                           will hinge on its ability to overcome a number of obstacles, including a shortage
                           of personnel and problems with its training program.

                                    Meeting MTSA Deadlines for Security Assessments and Plans

                           Implementing federal regulations now require owners and operators of certain
                           port facilities and vessels to conduct security assessments and develop security
                           plans12. These plans must then be submitted to the cognizant captain of the port
                           by December 31, 2003. According to the MTSA, owners and operators of vessels
                           and facilities which fail to adhere to these regulatory requirements will be liable to
                           the United States for a civil penalty of not more than $25,000 for each violation13.

                           According to the Coast Guard, the maritime industry has experienced difficulty
                           meeting these MTSA requirements and, as of January 31, 2004, the non-
                           compliance rate remained above 50%. Further, while many of the submitted plans
                           met minimum compliance requirements, many were found to be missing critical
                           pieces of information. Coast Guard officials state that they have since stepped up
                           efforts to get industry compliance and, as a result, by the end of February 2004,
                           submission rates had increased to more than 97%.

                                    Staff Requirements to Implement and Enforce MTSA

                           The Coast Guard estimates that they need 700 active duty and civilian billets to
                           implement and enforce MTSA. However, funding for these additional billets
                           was not included in the Coast Guard’s FY 2004 budget. As a stopgap measure,
                           the Coast Guard is recalling 450 reservists to active duty. While many of these
                           reservists have received the requisite training, experience, and certification to
                           perform their maritime security and marine inspection duties and responsibilities,
                           many others have not. This is evidenced by Coast Guard’s plans to train
                           approximately 400 new vessel and facility inspectors during FY 2004. Further,
                           Coast Guard officials have said that reservists who complete the formalized
                           training will be sent back to their respective units to provide an unspecified
                           amount of on-the-job training to prospective inspectors. The Coast Guard has
                           yet to specify how long the on-the-job training must be or how long it will take
                           for them to obtain the required training, experience, and certification needed to
                           enforce MTSA requirements properly.


12
     33CFR104 & 33CFR105.
 

13
     MTSA Part 102, Section 70117 and 33 CFR 104.310.
 



Page 56                                     Status on the Department Management Challenges
                          Port Security Procedures
                          As a result of the events of September 11, 2001, seaport security and the cargo
                          that enters into the United States at our seaports have become prominent issues.
                          CBP has taken positive steps to address the terrorist threat, including initiatives
                          to increase the involvement of industry in the area of port security to reduce the
                          vulnerability of ports to terrorist activities. These initiatives include the Container
                          Security Initiative (CSI) and Customs Trade Partnership Against Terrorism (C-
                          TPAT).

                          OIG is currently conducting an audit of CSI, focusing on the issues associated
                          with the pre-screening element, such as reliance on inspections of cargo
                          containers conducted by foreign officials and safeguarding these containers after
                          inspection, prior to lading. We also plan to review C-TPAT to determine whether
                          CBP has implemented adequate management controls over the program to ensure
                          that participants are meeting program requirements and that program objectives
                          are met.

                          In an ongoing audit, we concluded that, although CBP has addressed many of
                          these issues, problems still exist.

                          Screening International Mail
                          Each year a huge volume of international mail transported by foreign postal
                          administrators - approximately 160 million letters and parcels - enters the United
                          States at 13 international mail branches (IMBs). These IMBs are dispersed
                          throughout the country, but are often co-located with international airports,
                          seaports, and land ports. International mail is subject to CBP examination14, and
                          IMBs are staffed with CBP inspectors, mail specialists, and mail technicians who
                          inspect the mail for implements of terror and contraband. CBP uses automated
                          screening equipment, such as x-ray and radiation detection devices, as well as
                          dogs, to assist inspectors in examining the mail.

                          While receipt of the mail at the IMB is a USPS mission, Treasury OIG reported
                          that CBP needs to work closely with USPS to ensure that all mail is delivered to
                          IMBs for inspection. CBP also needs to ensure that adequate inspector resources
                          and screening equipment is in place and effectively used to identify potential
                          threats.


14
  However, CBP does not examine international mail that is in-transit through the U.S. The legal authority to review in-
transit mail is under review within the Executive Branch.


                          Status on the Department Management Challenges                                            Page 57

          Controls Over Hazardous Materials
          CBP faces significant challenges in operating hazardous materials (HAZMAT)
          program. HAZMAT cargo is inherently dangerous to handle. Conducting
          HAZMAT cargo examinations requires personnel specifically trained for such
          duties. According to CBP management, the ACE computer system, when fully
          deployed and operational, will provide the performance data with which to
          measure the success of the program and determine how to allocate HAZMAT
          resources best.

          Other Transportation Modes
          TSA focused its first years of effort on aviation security. However, ATSA
          mandates that TSA be responsible for security in all modes of transportation,
          including non-aviation modes such as rail, highway, mass transit, cruise lines,
          and ferries. TSA has to date given relatively little attention to other modes. TSA
          is working on a national transportation system security plan that will address all
          modes of transportation under a single security strategy so that security efforts
          are consistent, coordinated, and will meet identified goals. Also, TSA is drafting
          MOUs with other DHS components to determine how they will coordinate work
          in the future. OIG’s FY 2004 performance plan includes an examination of TSA’s
          efforts to secure non-aviation modes of transportation.




Page 58                 Status on the Department Management Challenges
 

                                                    DHS    Management     Report
                                                                                      Report Title               Date Issued Recommendation                                     Status
                                                 Component  Challenge     Number
                                                                                                                            Ensure that the CMO Web Portal is available
                                                                                                                            to Customs and contractor staff where ACE
                                                  Customs    Border      OIG-03-058   ACE Management             12/12/2002 development work is being conducted as required     Open
                                                                                                                            by the contract and that it is populated with the
                                                                                                                            necessary information.
                                                                                                                           Due to the sensitive nature of the information
                                                                                      Narcotics Interdiction:              contained in the report, all recommendations
                                                               High
                                                  Customs                OIG-01-084   Non-Intrusive Inspection   8/10/2001 are omitted from this abstract. However,             Open
                                                            Technology
                                                                                      Technology                           there are 2 open key recommendations and
                                                                                                                           4 closed.

                                                                                                                           Ensure that the trace detection equipment is
                                                               High                   Use of Trace Detection
                                                  Customs                OIG-03-068                              3/24/2003 redeployed to the most optimum sites within          Closed
                                                            Technology                Equipment
                                                                                                                           assigned locations.


                                                               High                   Use of Trace Detection                  Ensure that inspectors are adequately trained
                                                  Customs                OIG-03-068                              3/24/2003                                                      Closed
                                                            Technology                Equipment                               on the use of the trace detection equipment.


                                                                                                                           Ensure that the trace detection equipment
                                                               High                   Use of Trace Detection
                                                  Customs                OIG-03-068                              3/24/2003 is utilized and its usage and maintenance            Closed
                                                            Technology                Equipment
                                                                                                                           recorded.




Status on the Department Management Challenges
                                                                                                                           Due to the sensitive nature of the information
                                                                                      Strategic Plan for
                                                               High                                                        contained in the report, all recommendations
                                                  Customs                OIG-03-073   Deploying Radiation        3/27/2003                                                      Closed
                                                            Technology                                                     are omitted from this abstract. However,
                                                                                      Detection Equipment
                                                                                                                           there are 2 closed key recommendations.


                                                                                                                              Due to the sensitive nature of the information
                                                                                      Information Technology:
                                                                                                                              contained in the report, all recommendations
                                                  Customs       IT       OIG-02-083   Controls Over Law           8/7/2002                                                      Open
                                                                                                                              are omitted from this abstract. However,
                                                                                      Enforcement Data
                                                                                                                              there is 1 open key recommendation.


                                                                                                         Appendix 1

                                                                                            Status of Key OIG Recommendations
 





  Page 59
 

                                                       DHS    Management       Report
                                                                                           Report Title              Date Issued Recommendation                                   Status
                                                    Component  Challenge       Number




Page 60
                                                                                           Trade & Passenger
                                                                                                                                 Establish policy and procedures to ensure that
                                                                                           Processing: IPR
                                                                                                                                 all original IPR recordation files containing
                                                     Customs        IT        OIG-03-027   Enforcement Strategy      5/8/2002                                                     Open
                                                                                                                                 trademarks, trade names, and copyrights are
                                                                                           and Management
                                                                                                                                 properly maintained.
                                                                                           Controls
                                                                                                                               Due to the sensitive nature of the information
                                                                                                                               contained in the report, all recommendations
                                                                                                                               are omitted from this abstract. However,
                                                                                           Financial Management:
                                                                                                                               there are 6 findings supporting Material
                                                                                           Review of EDP General
                                                     Customs        IT        OIG-03-064                            12/12/2002 Weakness with 11 recommendations; there            Open
                                                                                           and Selected Application
                                                                                                                               is 1 finding classified as reportable condition
                                                                                           Controls
                                                                                                                               with 1 recommendation. Additionally, there
                                                                                                                               are four findings reported as Management
                                                                                                                               Letter with 12 recommendations.

                                                                                           Security, Inspection,               Due to the sensitive nature of the information
                                                                Maritime                   and Targeting of                    contained in the report, all recommendations
                                                     Customs                  OIG-03-074                             4/18/2003                                                    Closed
                                                                Security                   Vessel Containers At                are omitted from this abstract. However,
                                                                                           U.S. Seaports                       there are 10 closed key recommendations.

                                                                                                                                 Due to the sensitive nature of the information
                                                                                           Trade Processing:                     contained in the report, all recommendations
                                                               Other Border
                                                     Customs                  OIG-03-065   The National HAZMAT       3/17/2003   are omitted from this abstract. However,         Open
                                                                 Security
                                                                                           Program                               there are 2 open key recommendations and
                                                                                                                                 1 closed.
                                                                                                                               Due to the sensitive nature of the information
                                                                                           Enforcement Operations              contained in the report, all recommendations
                                                               Other Border
                                                     Customs                  OIG-03-071   for Inbound Railcars at   3/26/2003 are omitted from this abstract. However,           Open
                                                                 Security
                                                                                           Port Huron, MI                      there are 2 open key recommendations and




Status on the Department Management Challenges
 

                                                                                                                               5 closed.




                                                                                                              Appendix 1

                                                                                                 Status of Key OIG Recommendations
 

                                                    DHS    Management        Report
                                                                                         Report Title              Date Issued Recommendation                                  Status
                                                 Component  Challenge        Number


                                                                                         Protecting the Public:
                                                            Other Border                                                      Continue to identify and implement innovative
                                                  Customs                  OIG-CA-03-002 Staffing Challenges Along 10/31/2002                                                  Closed
                                                              Security                                                        approaches to staffing challenges.
                                                                                         The Northern Border


                                                                                                                              Due to the sensitive nature of the information
                                                            Other Border                 Enforcement of Export                contained in the report, all recommendations
                                                  Customs                   OIG-03-069                             12/12/2002                                                  Open
                                                              Security                   Controls                             are omitted from this abstract. However,
                                                                                                                              there is 1 open recommendation.


                                                                                                                           Due to the sensitive nature of the information
                                                                                         FY 2002 Evaluation:
                                                                                                                           contained in the report, all recommendations
                                                    INS       Info Sec         03-08     Government Information 11/12/2002                                                     Open
                                                                                                                           are omitted from this abstract. However,
                                                                                         Security Reform Act
                                                                                                                           there are 4 open key recommendations.


                                                                                                                              Due to the sensitive nature of the information
                                                                                         Information Technology:
                                                  Secret    Information                                                       contained in the report, all recommendations
                                                                            OIG-03-002   Controls Over Law         10/28/2002                                                  Open
                                                  Service    Technology                                                       are omitted from this abstract. However,
                                                                                         Enforcement Data
                                                                                                                              there are 4 open key recommendations.




Status on the Department Management Challenges
                                                                                                                             Test actual effectiveness of security controls
                                                             Financial                   FY 2002 Financial
                                                    TSA                    QC-2003-016                             1/27/2003 through a comprehensive security test and         Open
                                                            Management                   Statements
                                                                                                                             evaluation process.


                                                                                                                             Establish a self-assessment process to
                                                             Financial                 FY 2002 Financial                     continually monitor internal control and
                                                    TSA                    QC-2003-016                             1/27/2003                                                   Open
                                                            Management                 Statements                            accounting systems in order to comply with
                                                                                                                             FMFIA.




                                                                                                            Appendix 1

                                                                                               Status of Key OIG Recommendations
 





  Page 61
 

                                                       DHS    Management       Report
                                                                                           Report Title             Date Issued Recommendation                                      Status
                                                    Component  Challenge       Number




Page 62
                                                                                                                              Due to the sensitive nature of the information
                                                                                                                              contained in the report, all recommendations
                                                             Transportation               TSA’s Cargo Security
                                                       TSA                  L-SC-2002-113                           9/19/2002 are omitted from this abstract. However,              Open
                                                                Security                  Program
                                                                                                                              there are 7 open recommendations and
                                                                                                                              2 closed.

                                                                                                                              Promote the use of radio frequency
                                                             Transportation               Proposed Aviation                   identification technology to process, reconcile,
                                                       TSA                  L-SC-2003-024                           2/28/2003                                                       Closed
                                                                Security                  Security Technologies               and track passenger and baggage information
                                                                                                                              rapidly and reliably.


                                                                                                                              Continue to evaluate and test in the airport
                                                             Transportation               Proposed Aviation
                                                       TSA                  L-SC-2003-024                           2/28/2003 environment explosives trace detection                Closed
                                                                Security                  Security Technologies
                                                                                                                              technologies.


                                                                                                                              Due to the sensitive nature of the information
                                                             Transportation               TSA’s Screener Security             contained in the report, all recommendations
                                                       TSA                  L-SC-2003-026                           2/28/2003                                                       Open
                                                                Security                  Program                             are omitted from this abstract. However,
                                                                                                                              there are 6 open key recommendations.

                                                                                                                                Promote development of monitoring
                                                                                                                                equipment, exit lanes arches, and radio
                                                             Transportation
                                                       TSA                    SC-2003-24   Security Technologies     2/28/03    frequency identification technology for             Open
                                                                Security
                                                                                                                                surveillance and detection applications the
                                                                                                                                airport environment.


                                                                                                                                Conduct tests to determine the best
                                                             Transportation




Status on the Department Management Challenges
 

                                                       TSA                    SC-2003-24   Security Technologies     2/28/03    application of materials for reinforcing aircraft   Open
                                                                Security
                                                                                                                                cabins.




                                                                                                              Appendix 1

                                                                                                 Status of Key OIG Recommendations
 

                                                    DHS    Management       Report
                                                                                        Report Title               Date Issued Recommendation                                     Status
                                                 Component  Challenge       Number


                                                                                                                               Develop software changes to strengthen Mode-
                                                          Transportation
                                                    TSA                    SC-2003-24   Security Technologies       2/28/03    S transponders and evaluate systems to down        Open
                                                             Security
                                                                                                                               linked cabin-cockpit data.



                                                          Transportation                                                       Suspend the use of Bluetooth Technology on
                                                    TSA                    SC-2003-29   Transportation Security    3/14/2003                                                      Open
                                                             Security                                                          aircraft until it has been evaluated by the FAA.



                                                                                                                               Due to the sensitive nature of the information
                                                              Border
                                                                                        Primary Inspections at                 contained in the report, all recommendations
                                                    CBP      Security        03-15                                 2/1/2003                                                       Closed
                                                                                        Air Ports of Entry (POE)               are omitted from this abstract. However,
                                                           Immigration
                                                                                                                               there are 3 closed recommendations.

                                                                                                                               Make a comprehensive determination of the
                                                              Border                                                           foreign-born inmates and identify resources
                                                                                        Institutional Removal
                                                    ICE      Security        02-41                                 9/1/2002    needed to implement IRP down to the county         Open
                                                                                        Program (IRP)
                                                           Immigration                                                         level; determine the risks of not implementing
                                                                                                                               IRP fully.




Status on the Department Management Challenges
                                                              Border
                                                                                        Institutional Removal                  Strengthen program management’s oversight
                                                    ICE      Security        02-41                                 9/1/2002                                                       Open
                                                                                        Program (IRP)                          of expenses and utilization of resources.
                                                           Immigration



                                                              Border
                                                                                        Deferred Inspections at                Establish policies and procedures that ensure
                                                    ICE      Security        01-29                                 9/1/2001                                                       Closed
                                                                                        Airports                               inspection of personnel with criminal records.
                                                           Immigration




                                                                                                           Appendix 1

                                                                                              Status of Key OIG Recommendations
 





  Page 63
 

                                                       DHS    Management     Report
                                                                                         Report Title              Date Issued Recommendation                                    Status
                                                    Component  Challenge     Number




Page 64
                                                                 Border                                                        Standardize inspection policies and procedures
                                                                                         Deferred Inspections at
                                                       ICE      Security      01-29                                9/1/2001    that allow for consistent completion of Form I-   Closed
                                                                                         Airports
                                                              Immigration                                                      546


                                                                                                                               Expand Form I-546 to capture data to include
                                                                 Border
                                                                                         Deferred Inspections at               local address and phone numbers, date
                                                       ICE      Security      01-29                                9/1/2001                                                      Closed
                                                                                         Airports                              and country of birth, and alien registration
                                                              Immigration
                                                                                                                               number.


                                                                 Border
                                                                                         Deferred Inspections at               Implement a service-wide automated tracking
                                                       ICE      Security      01-29                                9/1/2001                                                      Closed
                                                                                         Airports                              system for the deferred inspection program.
                                                              Immigration



                                                                 Border
                                                                                         Airport Inspection                    Coordinate with other Federal agencies to
                                                       ICE      Security      01-03                                12/1/2000                                                     Closed
                                                                                         Facilities                            upgrade existing facilities.
                                                              Immigration


                                                                                                                               Implement a Seaport risk management
                                                                 Border                  Use of Risk Management
                                                                                                                               strategy, only after implementing better
                                                       CBP      Security    I-2000-015   at Seaports (Identify     3/1/2000                                                      Closed
                                                                                                                               methods to collect, analyze and share
                                                              Immigration                Challenges)
                                                                                                                               inspection data.


                                                                 Border                  Use of Risk Management
                                                                                                                               Establish a program to control the quality and




Status on the Department Management Challenges
 

                                                       CBP      Security    I-2000-015   at Seaports (Identify     3/1/2000                                                      Closed
                                                                                                                               ensure integrity of all inspection data.
                                                              Immigration                Challenges)




                                                                                                            Appendix 1

                                                                                               Status of Key OIG Recommendations
 

                                                    DHS    Management       Report
                                                                                        Report Title                Date Issued Recommendation                                    Status
                                                 Component  Challenge       Number


                                                                Border                  Status of IDENT/IAFIS                  Develop an MOU with the Department of
                                                 CBP & ICE     Security    I-2003-005   Integration of US-VISIT     6/1/2003   Justice to facilitate the deployment, operation    Open
                                                             Immigration                Office                                 and management of the program integration.



                                                                Border                  Status of IDENT/IAFIS                  Establish and maintain updated tactical and
                                                 CBP & ICE     Security    I-2003-005   Integration of US-VISIT     6/1/2003   strategic milestones for the project integration   Open
                                                             Immigration                Office                                 to ensure its earliest completion.



                                                                Border                  Review of                              Implement procedures to record and account
                                                    ICE        Security    I-2001-09    Unaccompanied               9/1/2001   for all juveniles detained or transported while    Open
                                                             Immigration                Juveniles in INS Custody               in INS custody.


                                                                Border                  Review of
                                                                                                                               Establish and implement physical security
                                                    ICE        Security    I-2001-09    Unaccompanied               9/1/2001                                                      Open
                                                                                                                               procedures for all juveniles in INS custody.
                                                             Immigration                Juveniles in INS Custody

                                                                Border                  Review of                              Establish an INS continuing education program
                                                    ICE        Security    I-2001-09    Unaccompanied               9/1/2001   to include training for work with juveniles and    Open




Status on the Department Management Challenges
                                                             Immigration                Juveniles in INS Custody               the terms of the FLORES agreement.

                                                                Border                  INS Effort to Track
                                                                                                                               Appoint a program manager to manage and
                                                    ICE        Security    I-2003-03    Foreign Student in US       3/1/2003                                                      Closed
                                                                                                                               coordinate foreign student tracking issues.
                                                             Immigration                (SEVIS) - Follow-up audit

                                                                Border                  INS Effort to Track                    Develop a school recertification program,
                                                    ICE        Security    I-2003-03    Foreign Student in US       3/1/2003   which outlines responsibilities, training, and     Closed
                                                             Immigration                (SEVIS) - Follow-up audit              site visits for SEVIS.



                                                                                                           Appendix 1

                                                                                              Status of Key OIG Recommendations
 





  Page 65
 

                                                       DHS    Management    Report
                                                                                        Report Title                Date Issued Recommendation                                  Status
                                                    Component  Challenge    Number




Page 66
                                                                 Border                 INS Effort to Track                    Establish a unit in each District responsible
                                                       ICE      Security    I-2003-03   Foreign Student in US       3/1/2003   for making on-site verifications of approved     Open
                                                              Immigration               (SEVIS) - Follow-up audit              schools.

                                                                 Border                 INS Effort to Track
                                                                                                                               Develop a training plan, with milestones, for
                                                       ICE      Security    I-2003-03   Foreign Student in US       3/1/2003                                                    Closed
                                                                                                                               SEVIS at both the schools and INS Offices.
                                                              Immigration               (SEVIS) - Follow-up audit

                                                                 Border                 INS Effort to Track                    Develop and expand the SEVIS network to
                                                       ICE      Security    I-2003-03   Foreign Student in US       3/1/2003   include all service centers, POEs, district      Closed
                                                              Immigration               (SEVIS) - Follow-up audit              office and consular posts.


                                                                                                                               Develop a Removal Plan that outlines methods
                                                                 Border                 Removal of Aliens Whom
                                                                                                                               and milestones for achieving the 2012 goal
                                                       ICE      Security    I-2003-04   Have Been Issued Final      2/1/2003                                                    Closed
                                                                                                                               of “100% removal of all aliens whom have
                                                              Immigration               Orders
                                                                                                                               received final orders.”

                                                                 Border                 Removal of Aliens Whom                 Identify the resources needed (for all case
                                                       ICE      Security    I-2003-04   Have Been Issued Final      2/1/2003   types) to achieve the 100% removal of all        Closed
                                                              Immigration               Orders                                 aliens whom have received final orders.

                                                                                                                               Complete the current rulemaking on Requiring
                                                                 Border                 Removal of Aliens Whom
                                                                                                                               Aliens Ordered Removed from the U.S. to
                                                       ICE      Security    I-2003-04   Have Been Issued Final      2/1/2003                                                    Closed
                                                                                                                               Surrender to Immigration and Naturalization
                                                              Immigration               Orders
                                                                                                                               Safety for Removal.

                                                                 Border                                                        Improve coordination and compliance with
                                                                                        Improved Control of
                                                       ICE      Security    I-2002-06                               4/1/2002   airlines on collection of departure records to   Closed




Status on the Department Management Challenges
 

                                                                                        Nonimmigrant Overstays
                                                              Immigration                                                      reduce the number of overstays.




                                                                                                           Appendix 1

                                                                                              Status of Key OIG Recommendations
 

                                                    DHS    Management    Report
                                                                                     Report Title              Date Issued Recommendation                                    Status
                                                 Component  Challenge    Number
                                                                                                                          Initiate and maintain a quality control program
                                                              Border                                                      for NIIS data to ensure compliance with the
                                                                                     Improved Control of
                                                    ICE      Security    I-2002-06                             4/1/2002   Illegal Immigration Reform and Immigrant           Closed
                                                                                     Nonimmigrant Overstays
                                                           Immigration                                                    Responsibility Act and the Visa Waiver Pilot
                                                                                                                          Program.

                                                              Border                                                      Analyze compiled overstay data and
                                                                                     Improved Control of
                                                    ICE      Security    I-2002-06                             4/1/2002   implement program management procedures            Closed
                                                                                     Nonimmigrant Overstays
                                                           Immigration                                                    to develop a strategy to reduce this problem.


                                                                                                                          Improve the utilization of resources (human
                                                              Border
                                                                                     Improve Northern Border              & material) by improving methods of data
                                                    CBP      Security    I-2002-04                             2/1/2002                                                      Open
                                                                                     Security (Follow-up)                 collection and analysis on illegal activity on
                                                           Immigration
                                                                                                                          the northern border.


                                                              Border                                                      Initiate a process to determine the intelligence
                                                                                     Improve Northern Border
                                                    CBP      Security    I-2002-04                             2/1/2002   analysis needs necessary to deal with northern     Open
                                                                                     Security (Follow-up)
                                                           Immigration                                                    border illegal activity.


                                                              Border                                                      Implement a process to routinely assess the
                                                                                     Improve Northern Border




Status on the Department Management Challenges
                                                    CBP      Security    I-2002-04                             2/1/2002   human resource needs along the northern            Open
                                                                                     Security (Follow-up)
                                                           Immigration                                                    border and a plan to meet those needs.




                                                                                                       Appendix 1

                                                                                          Status of Key OIG Recommendations
 





  Page 67
 

Appendix 2
Abbreviations and Acronyms


ACE               Automated Commercial Environment
ACS               Automated Commercial System
AMS               Automated manifest system
APHIS             Animal and Plant Health Inspection Service
APIS              Advanced Passenger Information System
ATS               automated targeting system
ATSA              Aviation and Transportation Security Act of 2001

BCC               border crossing cards

CAPPS II          Computer-Assisted Passenger Prescreening System
CAT               computerized axial tomography
CBP               Customs and Border Protection
CCD               consular consolidated database
CES               centralized examination stations
CEU               Compliance Enforcement Unit
CFR               code of federal regulations
CIO               Chief Information Officer
CIS               Bureau of Citizenship and Immigration Services
Coast Guard       United States Coast Guard
COOP              continuity of operations plan
CSI               Container Security Initiative
CT                computed tomography
C-TPAT            Customs Trade Partnership Against Terrorism

DCAA              Defense Contract Audit Agency
DCMA              Defense Contract Management Agency
DHS               Department of Homeland Security
DHS/IA            Department of Homeland Security Office of Information Analysis
DOE               Department of Energy
DOJ               Department of Justice
DOJ OIG           Department of Justice Office of Inspector General
DOT               Department of Transportation
DOT OIG           Department of Transportation Office of Inspector General
DRO               Detention and Removal Office




Page 68                          Status on the Department Management Challenges

                                                                Appendix 2
                                                                Abbreviations and Acronyms


ECAR      Entry Clearance Arrival Record system
 

EDS       explosives detection systems
 

          Electronically Managing Enterprise Resources for Government Effectiveness & 
 

EMerge2
          Efficiency program
 

EOIR      Executive Office of Immigration Review
 

EP&R      Emergency Preparedness and Response Directorate
 

ETD       explosives trace detection machines
 



FAA       Federal Aviation Administration
 

FBI       Federal Bureau of Investigation
 

FBWT      fund balance with Treasury
 

FEMA      Federal Emergency Management Agency
 

FTE       Full-time equivalent positions
 

FISMA     Federal Information Security Management Act
 

FMFIA     Federal Managers Financial Integrity Act 
 

FSD       federal security director
 

FY        fiscal year 
 


GAO       United States General Accounting Office 
 


HAZMAT    hazardous materials.
 

HCC       hazardous cargo coordinators
 

HHS       Department of Health and Human Services
 

HSA       The Homeland Security Act of 2002
 


IA        DHS Office of Information Analysis
 

IAC       indirect air carriers
 

IAFIS     Integrated Automated Fingerprint Identification System
 

IAIP      Information Analysis and Infrastructure Protection Directorate
 

IBIS      Interagency Border Inspection System 
 

IC        Intelligence Community
 

ICE       Bureau of Immigration and Customs Enforcement 
 

IDENT     Automated Biometric Identification System
 

IMB       international mail branches
 

INS       Immigration and Naturalization Service 
 

IP        DHS Office of Infrastructure Protection 
 




           Status on the Department Management Challenges                           Page 69

Appendix 2
Abbreviations and Acronyms


IPR               image proficiency review
IPT               integrated project team
IRB               Investment Review Board
IRP               Institutional Removal Program
IT                information technology

KPMG              KPMG LLP
LE                law enforcement
LOI               letters of intent

MARAD             Maritime Administration
MOU               memoranda of understanding
MRU               manifest review unit
MTSA              Maritime Transportation Security Act of 2002

NAFTA             North American Free Trade Agreement
NAILS             National Automated Immigration Lookout System
NCIC              National Crime Information Center
NII               non-intrusive inspection
NSEERS            National Security Entry Exit Registration System

OCFO              Office of the Chief Financial Officer
ODP               Office of Domestic Preparedness
OIAPR             Office of Internal Affairs and Program Review
OIG               Office of Inspector General
OM&S              operating materials and supplies
OMB               Executive Office of the President Office of Management and Budget
OPM               Office of Personnel Management
ORR               Office of Refugee Resettlement of the Department of Health and Human Services


POE               port of entry
PP&E              property, plant, and equipment
RF                radio frequency
RFID              radio frequency identification




Page 70                           Status on the Department Management Challenges

                                                                         Appendix 2
                                                                         Abbreviations and Acronyms


S&T                  Science and Technology Directorate
SBU                  sensitive but unclassified
SCAAP                State Criminal Alien Assistance Program
SCU                  School Certification Unit
SENTRI               Secure Electronic Network for Travelers’ Rapid Inspection
SEVIS                Student and Exchange Visitor Information System
SEVP                 Student and Exchange Visitor Program
SNS                  Strategic National Stockpile
SOPs                 standard operating procedures
SPR                  Standardized Proficiency Review
SSG                  Strategic Sourcing Group
The Secret Service   United States Secret Service
TIP                  Threat Image Projection System
Treasury             United States Treasury OIG
TSA                  Transportation Security Administration
TSC                  Terrorist Screening Center
TTIC                 Terrorist Threat Integration Center

U.S.            The United States of America
USA PATRIOT Act The Uniting and Strengthening America by Providing Appropriate Tools Required
                to Intercept and Obstruct Terrorism Act of 2001
USPS            United States Postal Service
US-VISIT        United States Visitor and Immigrant Status Indication Technology




                      Status on the Department Management Challenges                         Page 71
Appendix 3
Purpose, Scope and Methodology


                    The purpose of this review was to identify the efforts of the department to
                    combine and integrate its functions into a more effective and efficient operation
                    and their timetables for completion, as well as to assess the DHS’ progress in
                    addressing other management challenges.

                    We identified the major management challenges facing the department in our first
                    Semiannual Report to the Congress on April 30, 2003. This report summarized
                    the management challenges and key recommendations from the work of OIGs
                    officials who oversaw departments or parts thereof that are now incorporated into
                    DHS. These OIG officials detailed the applicable component’s top management
                    challenges and other significant issues relating to the effectiveness, efficiency,
                    and/or economy of the components’ respective programs and operations.

                    This status report is based on data in OIG recommendation tracking files,
                    fieldwork already completed or underway, and meetings with senior staff in each
                    of the directorates and major components. This status review was conducted
                    between January 14, 2004, and March 3, 2004.




Page 72                            Status on the Department Management Challenges
                                                         Appendix 4
                                                         Report Distribution


Department of Homeland Security

Under Secretaries
Agency Heads
Chief of Staff, Deputy Secretary
DHS OIG Liaison

Office of Management and Budget

Homeland Bureau Chief
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees as Appropriate




Status on the Department Management Challenges                         Page 73
 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
